<html>
<title> - OVERSIGHT HEARING ON: HERGER-FEINSTEIN QUINCY LIBRARY GROUP FOREST RECOVERY ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



  OVERSIGHT HEARING ON: HERGER-FEINSTEIN QUINCY LIBRARY GROUP FOREST 
                              RECOVERY ACT

=======================================================================

                           OVERSIGHT HEARING

                               before the

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                    AUGUST 30, 1999, WASHINGTON D.C.

                               __________

                           Serial No. 106-61

                               __________

           Printed for the use of the Committee on Resources




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
62-242                     WASHINGTON : 2001

----------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH-HAGE, Idaho          CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA MC CHRISTENSEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  JAY INSLEE, Washington
MARK E. SOUDER, Indiana              GRACE F. NAPOLITANO, California
GREG WALDEN, Oregon                  TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
MIKE SIMPSON, Idaho                  RUSH D. HOLT, New Jersey
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

               Subcommittee on Forests and Forest Health

                 HELEN CHENOWETH-HAGE, Idaho, Chairman
JOHN J. DUNCAN, Jr., Tennessee       ADAM SMITH, Washington
JOHN T. DOOLITTLE, California        DALE E. KILDEE, Michigan
WAYNE T. GILCHREST, Maryland         OWEN B. PICKETT, Virginia
JOHN PETERSON, Pennsylvania          RON KIND, Wisconsin
RICK HILL, Montana                   GRACE F. NAPOLITANO, California
BOB SCHAFFER, Colorado               TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
                     Doug Crandall, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held August 30, 1999.....................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
        Prepared statement of....................................     3
    Herger, Wally, a Representative in Congress from the State of 
      California.................................................     5
        Prepared statement of....................................     7

Statements of witnesses:
    Jackson, Mike, Quincy Library Group Steering Committee, 
      Quincy, California.........................................     7
        Prepared statement of....................................     9
    O'Sullivan, Dick, California Cattlemen's Association Public 
      Lands Committee............................................    47
        Prepared statement of....................................    48
    Powell, Brad, Acting Regional Forester, Region 5, U.S. Forest 
      Service, Vallejo, California...............................    47
    Roudebush, Fran, Plumas County Supervisor, District 1, 
      Quincy, California.........................................    38
        Prepared statement of....................................    39
    Stewart, Frank, Counties QLG Forester, Chico, California.....    44
        Prepared statement of....................................     9
    Stewart, William, Chief, Fire and Resource Assessment 
      Program, California, Department of Forestry and Fire 
      Protection, Sacramento.....................................    32
        Prepared statement of....................................    34
    Spear, Mike, Manager, California/Nevada Operations Office, 
      U.S. Fish and Wildlife Service, Sacramento, California.....    60
        Prepared statement of....................................    61
    Terhune, George, Quincy Library Group Steering Committee, 
      Quincy, California, accompanied by Linda Blum, Quincy 
      Library Group, and Tom Nelson, Quincy Library Group, 
      California.................................................    11
        Prepared statement of....................................    13

Additional material supplied:

Communications received:
    The Record of Decision, text of..............................    77

 
  OVERSIGHT HEARING ON: HERGER-FEINSTEIN QUINCY LIBRARY GROUP FOREST 
                              RECOVERY ACT

                              ----------                              


                        MONDAY, august 30, 1999

              House of Representatives,    
                    Subcommittee on Forests and    
                                     Forest Health,
                                    Committee on Resources,
                                                Redding, California
    The Subcommittee met, pursuant to call, at 9 a.m., in 
Redding City Council Chambers, 1313 California Street, Redding, 
California, Hon. Helen Chenoweth [chairman of the Subcommittee] 
presiding.
    Member present: Representative Chenoweth

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. The Subcommittee will come to order. The 
Subcommittee is meeting here today to hear testimony on the 
Herger-Feinstein Quincy Library Group Forest Recovery Act. Mr. 
Herger and I both want to thank you very much for making the 
time to come here today, and I am deeply grateful to all of you 
for participating in a historic event.
    It is ironic that as I stepped out of my hotel today I 
smelled smoke of some of the 150 reported forest fires burning 
in Northern California. We also have new forest fires burning 
in Southern California. All we hear about is the hurricane on 
the national news.
    This is ironic because the very plan that we agreed on was 
designed to deal more effectively with the problem of forest 
fires, yet here we are, seven years later, and we are just 
beginning to implement the plan. I do not want to cast blame 
for this sad fact, and both Congressman Herger and I want to 
discuss the future with you. We want to discuss how to avoid 
the mistakes of the past and get on with conducting the pilot 
project that you struggle to promote for the forests, the 
wildlife, the people, who live throughout Northern California.
    We want to discuss where things stand with implementation 
of the Herger-Feinstein Quincy Library Group Forest Recovery 
Act. We also want to discuss the recently issued record of 
decision as directed by that Act and your plans to work 
together to get this project started.
    [The information may be found at the end of the hearing.]
    [The Record of Decision follows]
    Mrs. Chenoweth. Before we begin, though, congratulations 
are in order. We are now at a place and time, after seven long 
years for the Quincy Library Group, where the forest plan 
developed by diverse members and personalities of a rural 
California community can be legally implemented by your Federal 
Forest Service.
    You have overcome substantial hurdles, and you put your 
heads together and came up with a plan that worked for everyone 
in your community. It worked for the ecologic integrity of the 
forest and the species that rely on the forests, including the 
human species.
    You overcame administrative hurdles and legislative 
hurdles, tremendous hurdles. Your bill passed the House three 
times--once 329 to 1 and once unanimously. It passed the Senate 
once. It was signed by the President. And I think this was the 
first major forest management bill signed by this President.
    Your forest plan was scrutinized in a nearly 500-page 
environmental impact statement and a 16-page record of 
decision. Many people inside and outside of the Forest Service 
did not want the QLG plan to see the light of day, but many 
more did want to give it a chance. And so we are here today.
    That is because it is a plan that seeks to use man's 
knowledge and wherewithal to facilitate the ecological balance 
of forests that belong to everyone. It's a plan that 
acknowledges man's desire to provide an economic balance in the 
rural timber communities in this part of Northern California.
    It is a plan that recognizes that human beings are good, 
and that we are not about destroying the forests that God has 
given us. It also acknowledges that people are part of nature, 
and that some parts of nature should also be left alone.
    So I think that congratulations are in order. I want to, 
first, congratulate my colleague Wally Herger. This Congressman 
has worked tirelessly on your behalf, both inside Washington, 
DC and outside. His energy is unbounded, and I am so very 
impressed. He serves as an inspiration to me.
    I want to also congratulate George Terhune, Linda Blum. I 
want to congratulate Tom Nelson, and I want to congratulate 
Frank Stewart. Congratulations Michael Jackson, and 
congratulations Bill Coats, and one of my very favorite people, 
Rose Comstock. Congratulations to the QLG members. 
Congratulations Brad Powell, Kathryn Silverman, Mark Madrid, 
Steven Eubanks, and Dave Peters of the Forest Service. And 
congratulations to Mike Spear of the Fish and Wildlife Service.
    I also want to thank my colleague in the Senate, my senior 
Senator, Larry Craig, for the part that he has played in this. 
And I want to thank California senior Senator Dianne Feinstein. 
You all made this plan and have brought it here today, ready 
for implementation.
    Now, I realize that it is a rare occasion that I 
congratulate people in the Forest Service and in the Fish and 
Wildlife Service on the same day. But you all deserve a piece 
of the credit for belonging and bringing this community-based 
plan to a point where it can now be implemented as a pilot 
project. It offers hope to those of us who care deeply about 
balance in our national forests.
    And while some of this hearing will focus on the specifics 
of the EIS and the record of decision, I very much look forward 
to hearing about the future, hearing about how you all plan to 
work together to make this project really finally happen and 
before this new century begins. We want to see work on the 
ground.
    After seven years of work, the Plumas, the Lassen, and the 
Tahoe forests, and the species that depend on them, including--
and in my opinion, very, very importantly--the human species, 
deserve nothing less than implementation this year.
    Thank you all for coming, and now I turn to my colleague, 
Congressman Herger, for his opening statement.
    [The prepared statement of Mrs. Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    Mr. Herger and I thank you for making the time to come here 
today. We want to discuss where things stand with the Herger-
Feinstein Quincy Library Group Forest Recovery Act. We also 
want to discuss the recently issued Record of Decision as 
directed by that Act, and your plans to work together to get 
this project started.
    Before we begin, though, congratulations are in order. We 
are now at a place and time, after seven long years for the 
Quincy Library Group, where the forest plan developed by 
diverse members and personalities of a rural California 
community CAN BE LEGALLY IMPLEMENTED BY YOUR FEDERAL FOREST 
SERVICE!
    You have overcome substantial hurdles. You put your heads 
together and came up with a plan that worked for everyone in 
your community. It worked for the ecologic integrity of the 
forest and the species that rely on the forest--including human 
beings.
    You overcame administrative hurdles and legislative 
hurdles. Your bill passed the House three times--once 429-1 and 
once unanimously. It passed the Senate once. It was signed by 
the President. I think this was the first major forest 
management bill signed by this President.
    Your forest plan was scrutinized in a nearly 500 page 
Environmental Impact Statement and a 16 page Record of 
decision. Many people inside and outside of the Forest Service 
did not want the QLG plan to see the light of day, but many 
more did want to give it a chance.
    That is because it is a plan that seeks to use man's 
knowledge and wherewithal to facilitate the ecological balance 
of forests that belong to everyone. It is a plan that 
acknowledges man's desire to provide an economic balance in the 
rural timber communities in this part of Northern California.
    It is a plan that recognizes that human beings are good, 
that we are not about destroying the forests that God has given 
us. It also acknowledges that people are part of nature, but 
that some parts of nature should be left alone.
    So I think that congratulations are in order. 
Congratulations Linda Blum. Congratulations George Terhune. 
Congratulations Tom Nelson. Congratulations Frank Stewart. 
Congratulations Mike Jackson. Congratulations Bill Coats. 
Congratulations Rose Comstock. Congratulations QLG members. 
Congratulations Brad Powell, Kathryn Silverman, Mark Madrid, 
Steven Eubanks and Dave Peters of the Forest Service. 
Congratulations Mike Spear of the Fish and Wildlife Service. 
Congratulations Wally Herger and Congratulations Senator Larry 
Craig and Senator Diane Feinstein. You all made this plan and 
have brought it here today--ready for implementation.

    Mr. Herger. Madam Chairman, thank you for arranging this 
hearing today on the Quincy Library Group Forest Recovery Act. 
This legislation is a breakthrough for those of us interested 
in finding bipartisan and cooperative solutions to forest 
management issues. It has received the full support and backing 
of the forest products industry, local environmentalists, 
labor, local officials, and concerned citizens.
    I'd like to take a moment to applaud Senator Dianne 
Feinstein for taking on the challenge to support this 
legislation on behalf of the people of Quincy and of 
California. I'd also like to thank her for standing behind her 
principles to support the Quincy Library Group. Her assistance 
is reflective of the spirit of coming together that epitomizes 
the QLG experience.
    I would also like to thank the Forest Service for their 
hard work in preparing this environmental impact statement, 
both the leadership at the regional level and the staff who 
worked diligently on the EIS. I commend them for supporting and 
selecting Alternative 2 in the face of opposition from certain 
extreme environmental organizations opposed to local consensus 
and collaboration. This is the correct decision and is 
consistent with the intent of Congress in overwhelmingly 
passing the Act.
    I'd also like to express my deep appreciation to the Quincy 
Library Group. Focused on the realization that something had to 
be done to remove the gridlock that has prevented responsible 
forest management for the last 15 years, the members of the QLG 
set aside their differences and worked together to develop 
local, consensus-driven solutions. Through their hard work and 
dedication to this project, they have demonstrated an 
immeasurable commitment to improving the health and well-being 
of the communities and forests in which they live and work.
    The selection of Alternative 2 gets us one step closer to 
actual implementation of this historic pilot project which is 
truly a win-win for our forests and our communities. This 
project is good for people, it is good for the environment, and 
it is good for the forests.
    Currently, 39 million acres of our forests--western 
forests--are at a frighteningly high risk of destruction from 
catastrophic fire. A recently released Government Accounting 
Office report called western national forests a ``tinderbox.'' 
In some areas, our national forests are two and three times 
denser than they were back in 1928. Thick undergrowth, combined 
with increasingly taller layers of intermediate trees, has 
turned western forests into deadly fire time bombs.
    Now, when a fire starts, it quickly climbs up the dense 
tree growth like a ladder until it tops out at the uppermost or 
crown level of the forest and races out of control as a 
catastrophic fire. Because of their high speed and intense 
heat, crown fires are nothing like the normally healthy fires 
of the past, but have the capability of leaving an almost 
sterile environment in their wake with almost no vegetation, 
wildlife, or habitat left behind.
    This past week over 150 separate fire incidents, caused by 
more than 3,000 lightning strikes, have raged throughout my 
Northern California district, placing life and property at 
risk. This tragedy shows the constant and imminent threat of 
wildfire devastation facing our citizens and communities every 
day. It emphasizes what the QLG has stressed all along--that we 
absolutely must address this wildfire risk immediately.
    And it emphasizes the need to implement a plan such as that 
proposed by the Quincy Library Group on forests throughout the 
west. Experts believe that the window of opportunity for taking 
effective management action is only about 10 to 25 years before 
catastrophic wildfires become widespread.
    The Quincy Library Group proposal uses the best science 
available to address this impending wildfire threat, while 
providing economic benefits to our struggling rural 
communities. It protects the Federal forest lands. It protects 
owls and other animals. It has the best chance of producing a 
fire-resistant forest. It is the most balanced alternative for 
community stability and jobs.
    Although certain extreme organizations have misled the 
public during the course of this debate, portraying the QLG 
project as a logging bill and claiming that it would destroy 
owl habitat, in reality, the project has always been about 
addressing the extreme fire danger facing our rural communities 
and preserving our forest ecosystems for future generations.
    The possibility that owl habitat could be lost entirely 
because of a devastating wildfire is too often overlooked. If 
we do not combat this risk now, we might not have anything left 
to save.
    We have a historic opportunity before us to prove, through 
tangible, on-the-ground results, that economic stability and 
forest health are not mutually exclusive. This decision is an 
important first step. However, we must now put this EIS behind 
us and direct our energies toward proper implementation of the 
pilot project. The Forest Service must continue to collaborate 
with the QLG to ensure that on-the-ground activities are 
conducted as Congress and the QLG intended.
    We must work to ensure that the activities are carried out 
on the scale and at the pace and will provide the full economic 
and ecological benefits envisioned. We must work to ensure that 
measures are put into place on the ground to effectively 
eliminate any potential negative effects on livestock grazing. 
The Forest Service must continue to place its good faith 
support behind the QLG proposal.
    I believe the QLG project will provide the model for 
effective management of our western forests. This plan 
represents an entirely new approach to managing our national 
forests. It is history in the making. It is also an opportunity 
to reinforce that local coalitions, not Washington 
bureaucracies, are best at deciding what will work for their 
communities.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Herger follows:]

 Statement of Hon. Wally Herger, a Representative in Cogress from the 
                          State of California

    Madam Chairman, thank you for arranging this hearing today 
on the Quincy Library Group Forest Recovery Act. This 
legislation is a breakthrough for those of us interested in 
finding bipartisan and cooperative solutions to forest 
management issues. It has received the full support and backing 
of the forest products industry, local environmentalists, 
labor, local officials and concerned citizens.
    I would like to take a moment to applaud Senator Dianne 
Feinstein for taking on the challenge to support this 
legislation on behalf of the people of Quincy. I would also 
like to thank her for standing behind her principles to support 
the Quincy Library Group. Her assistance is reflective of the 
spirit of coming together that epitomizes the QLG experience.
    I would also like to thank the Forest Service for their 
hard work in preparing this Environmental Impact Statement--
both the leadership at the Regional level and the staff who 
worked diligently on the EIS. I commend them for supporting and 
selecting Alternative 2 in the face of opposition from certain 
extreme environmental organizations opposed to local consensus 
and collaboration. This is the correct decision and is 
consistent with the intent of Congress in overwhelmingly 
passing the Act.
    I would also like to express my deep appreciation to the 
Quincy Library Group. Focused on the realization that something 
had to be done to remove the gridlock that has prevented 
responsible forest management for the last 15 years, the 
members of the QLG set aside their differences and worked 
together to develop local, consensus-driven solutions. Through 
their hard work and dedication to this project, they have 
demonstrated an immeasurable commitment to improving the health 
and well-being of the communities and forests in which they 
live and work.
    The selection of Alternative 2 gets us one step closer to 
actual implementation of this historic pilot project which is 
truly a win-win for our forests and our communities. This 
project is good for people, it is good for the environment, and 
it is good for the forests.
    Currently, 39 million acres of our western forests are at a 
frighteningly high risk of destruction from catastrophic fire. 
A recently released Government Accounting Office report called 
western National Forests a ``tinderbox.'' In some areas, our 
National Forests are 2 to 3 times denser than they were in 
1928. Thick undergrowth, combined with increasingly taller 
layers of intermediate trees, has turned western forests into 
deadly fire time bombs. Now, when a fire starts, it quickly 
climbs up the dense tree growth like a ladder until it tops out 
at the uppermost, or ``crown,'' level of the forest and races 
out of control as a catastrophic fire. Because of their high 
speed and intense heat, ``crown fires'' are nothing like the 
normally healthy fires of the past, but have the capability of 
leaving an almost sterile environment in their wake with almost 
no vegetation, wildlife, or habitat left behind.
    This past week, over 100 separate fire incidents, caused by 
more than 3,000 lightening strikes, have raged throughout my 
Northern California District, placing life and property at 
great risk. This tragedy shows the constant and imminent threat 
of wildfire devastation facing our citizens and communities 
every day. It emphasizes what the QLG has stressed all along--
that we absolutely must address this wildfire risk immediately. 
And it emphasizes the need to implement a plan such as that 
proposed by the Quincy Library Group on forests throughout the 
west. Experts believe that the window of opportunity for taking 
effective management action is only about 10 to 25 years before 
catastrophic wildfires become widespread.
    The Quincy Library Group proposal uses the best science 
available to address this impending wildfire threat, while 
providing economic benefits to our struggling rural 
communities. It protects the Federal forest land. It protects 
owls and other animals. It has the best chance of producing a 
fire resistant forest. It is the most balanced alternative for 
community stability and jobs. Although certain extreme 
organizations have misled the public during the course of this 
debate, portraying the QLG project as a logging bill and 
claiming that it will destroy owl habitat, in reality, the 
project has always been about addressing the extreme fire 
danger facing our rural communities and preserving our forest 
ecosystems for future generations. The possibility that owl 
habitat could be lost entirely because of a devastating 
wildfire is too often overlooked. If we do not combat this risk 
now, we might not have anything left to save.
    We have a historic opportunity before us to prove through 
tangible, on-the-ground results that economic stability and 
forest health are NOT mutually exclusive. This Decision is an 
important first step. However, we must now put this EIS behind 
us and direct our energies toward proper implementation of the 
pilot project. The Forest Service must continue to collaborate 
with the QLG to ensure that on-the-ground activities are 
conducted as Congress and the QLG intended. We must work to 
ensure that the activities are carried out on the scale and at 
the pace that will provide the full economic and ecological 
benefits envisioned. We must work to ensure that measures are 
put into place on the ground to effectively eliminate any 
potential negative effects on livestock grazing. The Forest 
Service must continue to place its good-faith support behind 
the QLG proposal.
    I believe the QLG project will provide THE model for 
effective management of our western forests. This plan 
represents an entirely new approach to managing our National 
Forests. It is history in the making. It is also an opportunity 
to reinforce that local coalitions, not Washington 
bureaucracies, are best at deciding what will work for their 
communities.
    Thank you, Madam Chairman.

    Mrs. Chenoweth. Thank you, Mr. Herger.
    It is my privilege to be able to introduce our first panel 
now. Mr. Mike Jackson will be joining us first from the Quincy 
Library Group Steering Committee, Quincy, California; Mr. 
George Terhune, Quincy Library Group Steering Committee, also 
from Quincy, California; accompanied by Linda Blum of the 
Quincy Library Group, and Mr. Ed Murphy of Sierra Pacific 
Industries.
    As explained in our first hearing, it is the intention of 
the Chairman to place all witnesses under oath. This is a 
formality of the committee that is meant to assure open and 
honest discussion and should not affect the testimony given by 
the witnesses.
    I believe that all of the witnesses were informed of this 
before appearing here today, and that you all have been 
provided a copy of the committee rules.
    Now, if you will just please stand and raise your right arm 
to the square.
    [Witnesses sworn.]
    The Chairman now recognizes Mr. Mike Jackson for testimony.

   STATEMENT OF MIKE JACKSON, QUINCY LIBRARY GROUP STEERING 
                 COMMITTEE, QUINCY, CALIFORNIA

    Mr. Jackson. Thank you, Chairman Chenoweth. The words that 
you have spoken, the words that Congressman Herger have spoken, 
basically make all of the time worthwhile. And I really want to 
thank you for the steadfastness of your support and personal 
instructions that you have given each and every one of our 
members.
    It is a great honor to return to testify before this 
Subcommittee of Congress. The opportunity to participate in the 
noble experiment that is the subject of this hearing has been 
one of my most fulfilling personal experiences. While not all 
of the moments of the last seven years have been pain-free, 
basically I believe that democracy and law can work, and that 
the Quincy Library Group experience proves that fact.
    Since George Terhune is also testifying, and since Linda 
and Ed are here to answer questions, they will cover the 
substantive parts of the Quincy program for you. But I feel 
free to limit my comments to the seven-year process of the 
program.
    When we first set down to attempt to find common ground, we 
actually thought the source of the problems confronting our 
communities was local. We were wrong. While there were, and 
are, values and beliefs in the community that are different, 
those legitimate differences are not the source of the almost 
violent differences between the people of the west.
    The substantive differences are more about means than ends, 
and the problems dividing us can be solved. The lack of 
scientific certainty about public land ecosystems will always 
leave room for different views about proper management, but 
there is no excuse for the present management paralysis.
    The land has needs, the people who live in it have needs, 
and the great urban communities of the west have needs. How can 
they all be reconciled?
    For the Quincy program, the Congress and the Forest Service 
have established a balance between these needs and the health 
of the forest. I still believe that that balance is 
approximately correct and feel validated by the Forest Service 
decision to proceed. I look forward to the monitoring and 
analysis that will finally tell us who was right and who was 
wrong about this particular solution to our problems in the 
Northern Sierra Nevada.
    But today, because I think it will be instructive, I would 
like to talk about a tale of two cities--one small and rural, 
one large and urban. Quincy and San Francisco have a 
relationship much like rural and urban communities in the rest 
of the west. San Francisco is very liberal; Quincy is mostly 
conservative. San Francisco is very rich; Quincy is quite poor. 
San Francisco is politically powerful; Quincy is almost unknown 
in California and Washington, DC.
    Most of San Francisco's property is private; most of the 
area around Quincy is national forest. Over the last 150 years, 
most of the damage in the local national forests have been done 
by San Francisco corporations and citizens. The mining and 
lumber industries were centered in San Francisco, and most of 
the profit from mining, logging, and agriculture has 
traditionally gone to San Francisco, in much the same way 
resources overseas have gone to the colonial power, not to the 
local people.
    A quick comparison shows the power imbalance. San Francisco 
gets its water from Yosemite National Park, from the flooded 
Hetch Hetchy Valley. Quincy pumps local groundwater. San 
Francisco gets its power from Yosemite National Park as well, 
and a San Francisco corporation--PG&E--has dammed and destroyed 
all of the rivers of the Sierra Nevada for urban shareholder 
profit. Quincy gets part of its power from PG&E and part from a 
rural electric cooperative.
    San Francisco controls another national park, the Presidio, 
with absolute local control. A private corporation rents 
commercial space to, among others, the Wilderness Society and 
the George Lucas Corporation. No one else in America gets any 
say in the management of this national park, and there is no 
opportunity for input since this operation was exempted from 
NEPA. Quincy has plowed ahead within all applicable laws and 
with thorough NEPA review.
    So why are there two sets of rules about public land? Why 
is San Francisco allowed to destroy major parts of two national 
parks with not a word from the Wilderness Society and the 
Sierra Club? But Quincy is accused of demanding local control 
of the nearby forests.
    For the last seven years, I have been trying to understand 
what seems to be a double standard. Now that our program is 
through the hurdles placed in front of it by the San Francisco-
based Sierra Club and Wilderness Society, I am still not 
completely sure why there is two sets of rules. All people are 
capable of hypocrisy, and I have certainly been guilty of it 
myself at times. But why can't the San Franciscans see it in 
themselves?
    I think this is because this urban/rural debate is not 
about the environment. It's about power. The colonial attitude 
of the urban environmental movement is not new to San 
Franciscans, and the disrespect that the elitist movement types 
have for rural people would exist no matter what people in 
Quincy do now or in the future. There will never be a sharing 
of responsibility and authority as long as the movement is more 
important than either the local people or the environment.
    The experience of the Quincy Library Group is different for 
every member. For me, the experience has taught me lifetime 
lessons. Some of them have been bitter, indeed, but most have 
touched my heart and thrilled my mind. Democracy works. The 
constitutional right to peaceably assembly with anyone of our 
choice to petition our government to redress our grievances is 
not just old dead words. These guarantees live today, and on 
behalf of my community I wish to thank the many great Americans 
who have gone out of their way to help us.
    First, I want to thank President Clinton for motivating us 
at the Northwest Forest Summit in Portland in 1993 when he told 
all of us to get out of the courtroom and work out these 
problems. Next, I want to thank Congressman Herger and Senator 
Feinstein, both of whom have been brave and steadfast in our 
support under intense pressure from their own natural 
constituencies. I want to thank Congressmen Don Young and 
Sherwood Boehlert and Senators Craig, Lott, Murkowski, Gorton, 
Daschle, Reid, and Bumpers for their help and inspiration.
    I also want to thank hundreds of government employees in 
the Agriculture, Interior, and Energy Departments with whom I 
have worked.
    I believe that America enters the 21st century a great and 
proud nation, with capable and compassionate leadership in both 
parties and in government service. Lastly, I want to thank the 
members of this Subcommittee and the full Committee for your 
time and consideration.
    I have only one further request for your consideration. 
When the next group of citizens comes forward, please give them 
the same time and consideration that you have given to us. You 
have proven to me that this is still a government of the 
people, by the people, and for the people.
    Thank you, Chairman Chenoweth, for your service and for 
your willingness to consider our new ideas.
    [The prepared statement of Mr. Jackson follows:]

Statement of Michael B. Jackson, Attorney at Law, 429 West Main Street, 
                           Quincy, California

    It is a great honor to return to testify before this 
Committee of Congress. The opportunity to participate in the 
noble experiment that is the subject of this hearing has been 
one of my most fulfilling personal experiences. While not all 
the moments of the last seven years have been pain-free, 
basically I believe that democracy and law can work, and the 
Quincy Library Group experience proves that fact.
    Since George Terhune is also testifying before the 
Subcommittee today, and will cover the substantive parts of the 
Quincy program for you, I feel free to limit my comments to the 
seven year process of the program. When we first sat down to 
attempt to find common ground, we actually thought the source 
of the problems confronting our communities was local. We were 
wrong. While there were, and are, values and beliefs that are 
different, those legitimatedifferences are not the source of 
the almost violent differences between the people of the West. 
The substantive differences are more about means than ends, and 
the problems dividing us can be solved. The lack of scientific 
certainty about public land ecosystems will always leave room 
for different views about proper management, but there is no 
excuse for the present management paralysis. The land has 
needs, the people who live in it have needs, and the great 
urban communities of the West have needs. How can they all be 
reconciled?
    For the Quincy program, the Congress and the Forest Service 
have established a balance between these needs and the health 
of the forest. I still believe that balance is approximately 
correct and feel validated by the Forest Service decision to 
proceed. I look forward to the monitoring and analysis that 
will finally tell us who was right and who was wrong about this 
particular solution to our problems in the Northern Sierra 
Nevada.
    But today, because I think it will be instructive, I would 
like to talk about a tale of two cities, one small and rural, 
one large and urban. Quincy and San Francisco have a 
relationship much like rural and urban communities in the rest 
of the West. San Francisco is very liberal, Quincy is mostly 
conservative. San Francisco is very rich, Quincy is quite poor. 
San Francisco is politically powerful, Quincy is almost 
completely unknown in California and Washington. Most of San 
Francisco's property is private, most of the area around Quincy 
is national forest.
    Over the last 150 years, most of the damage in the national 
forest has been done by San Francisco corporations and 
citizens. The mining and lumber industries were centered in San 
Francisco, and most of the profit from mining, logging and 
agriculture has traditionally gone to San Francisco in much the 
same way resources overseas have gone to the colonial power, 
not to the local people.
    A quick comparison shows the power imbalance. San Francisco 
gets its water from Yosemite National Park, from the flooded 
Hetch Hetchy Valley. Quincy pumps local groundwater. San 
Francisco gets its power from Yosemite National Park as well, 
and a San Francisco corporation, PG&E, has dammed and destroyed 
all the rivers of the Sierra Nevada for urban shareholder 
profit. Quincy gets part of its power from PG&E and part from a 
rural electric cooperative. San Francisco controls another 
national park, the Presidio, with absolute local control. A 
private corporation rents commercial space to, among others, 
the Wilderness Society and the George Lucas corporation. No one 
else in America gets any say in the management of this national 
park and there is no opportunity for input since this operation 
was exempted from NEPA. Quincy has plowed ahead, within all 
applicable laws and with thorough NEPA review.
    So why are there two sets of rules about public land? Why 
is San Francisco allowed to destroy major parts of two national 
parks with not a word from the Wilderness Society and the 
Sierra Club, but Quincy is accused of ``demanding local 
control'' of the nearby forests? For the last seven years, I 
have been trying to understand what seems to be a double 
standard. Now that our program is through the hurdles placed in 
front of it by the San Francisco-based Sierra Club and 
Wilderness Society, I am still not completely sure. All people 
are capable of hypocrisy and I have certainly been guilty 
myself at times, but why can't the San Franciscans see it in 
themselves?
    I think it is because this urban-rural debate is not about 
the environment, it is about power. The colonial attitude of 
the urban environmental movement is not new to San Franciscans, 
and the disrespect that the elitist ``movement'' types have for 
rural people would exist no matter what people in Quincy do now 
or in the future. There never will be a sharing of 
responsibility and authority as long as the ``movement'' is 
more important that either local people or the environment.
    The experience of the Quincy Library Group is different for 
every member. For me, the experience has taught me lifetime 
lessons. Some of them have been bitter indeed. But most have 
touched my heart and thrilled my mind. Democracy works. The 
Constitutional right to peaceably assemble with anyone of our 
choice to petition our government to redress our grievances is 
not just old dead words. These guarantees live today, and on 
behalf of my community I wish to thank many great Americans who 
have gone out of their way to help us.
    First, I want to thank President Clinton for motivating us 
at the Northwest Forest Summit in Portland in 1993 when he told 
all of us to get out of the courtroom and work out these 
problems. Next I want to thank Congressman Herger and Senator 
Feinstein, both of whom have been brave and steadfast in our 
support under intense pressure from their own natural 
constituencies. I want to thank Congressmen Don Young and 
Sherwood Boehlert and Senators Craig, Lott, Murkowski, Gorton, 
Daschle, Reid and Bumpers for their help and inspiration.
    I also want to thank hundreds of government employees in 
the Agriculture, Interior and Energy Departments with whom I 
have worked.
    I believe that America enters the 21st century a great and 
proud nation, with capable and compassionate leadership in both 
parties and in government service. Lastly I want to thank the 
members of this Subcommittee and the full Committee for your 
time and consideration. I have only one further request for 
your consideration. When the next group of citizens comes 
forward, please give them the same time and consideration that 
you have given to us. You have proven to me that this is still 
a government of the people, by the people, and for the people.
    Thank you, Chairman Chenoweth, for your service and for 
your willingness to consider our new ideas.

                Biographiocal Sketch Michael B. Jackson

    Michael Jackson graduated from the University of 
California, Hastings College of the Law, in 1972. He practices 
water and environmental law and has represented environmental 
groups and local government agencies in many state and Federal 
actions, including State Water Resources Control Board hearings 
on the Bay Delta and many California rivers. Mr. Jackson is 
currently Water Attorney for the Regional Council of Rural 
Counties, a coalition of 27 rural California counties. He is 
also Special Water Counsel for Plumas County.
    Mr. Jackson is a co-founder of the Quincy Library Group, a 
community collaborative effort designed to balance 
environmental health and economic recovery in Plumas, Lassen, 
and Sierra counties. He has been a lecturer and seminar 
participant for many American universities and for several 
private policy foundations on the subjects of natural 
resources, water, and the environment.

    Mrs. Chenoweth. Thank you, Mr. Jackson, for that 
outstanding testimony.
    The Chair now recognizes Mr. Terhune.

  STATEMENT OF GEORGE TERHUNE, QUINCY LIBRARY GROUP STEERING 
   COMMITTEE, QUINCY, CALIFORNIA, ACCOMPANIED BY LINDA BLUM, 
  QUINCY LIBRARY GROUP, AND TOM NELSON, QUINCY LIBRARY GROUP, 
                           CALIFORNIA

    Mr. Terhune. Chairman Chenoweth, Congressman Herger, I am 
George Terhune, a retired airline pilot, and co-chairman of the 
QLG Pilot Project Consultation Committee. Thank you for this 
opportunity to address your Committee on behalf of our 
committee.
    At this point, QLG is most interested in two things--
successful implementation of the pilot project and a reasonable 
outcome to the Sierra Nevada Forest Plan Amendment EIS now 
being developed in the Sierra Nevada conservation framework.
    Regarding the pilot project, we first want to express our 
profound gratitude and admiration to Congressman Herger and his 
staff, to Senator Feinstein and her staff, and to this 
Committee and its staff, for their continuous rock-solid 
support during the two and a half years it took to enact the 
legislation and obtain a Forest Service decision to implement 
it.
    QLG supports the decision to adopt Alternative 2 and will 
work diligently to help assure that it is implemented correctly 
and in a cost-effective manner. However, we must point out that 
this was a good decision but reached by some questionable 
processes that do need to be corrected.
    In my written testimony there are several specifics. At 
this time, I just want to emphasize two problem areas that were 
changes made by the Forest Service at the last minute.
    First, they decided to implement a mitigation instead of 
following the California spotted owl guidelines that are 
specified in the Act. This mitigation says that activities will 
``completely avoid suitable California spotted owl habitat, 
including nesting habitat and foraging habitat.''
    QLG does believe it would have been preferable to implement 
the guidelines as required by the Act, and that the substitute 
mitigation is very likely to introduce some problems because 
there are no rigorous definitions provided for ``suitable 
California spotted owl habitat or nesting habitat or foraging 
habitat.''
    And the wording implies that additional habitat other than 
nesting and foraging habitat is included in the prohibition. At 
the very least, we believe that the proper definition should be 
supplied and that the mitigation should be changed to say that 
the projects will avoid just the nesting and foraging habitat, 
because we believe that was the intention and the ambiguous 
wording might cause problems.
    The second change has to do with the limited operating 
periods--they are called LOPs--which are periods where activity 
is restricted in an area due to the presence of a rare animal 
or a bird at a sensitive time of its life cycle. Twelve species 
are on the list, and for 11 of them the LOP seems reasonable.
    For example, for a sandhill crane it limits activity within 
half a mile of known nesting sites from April 1st through 
August 1st. However, for the 12th species on the list, the 
California red-legged frog, the LOP applies to ``all unsurveyed 
and occupied suitable habitat, starting on October 1st or with 
the first quarter-inch rain of the season and continuing until 
April 15th of the following year.''
    That is potentially a very long shutdown period. It is over 
very large areas where these frogs are almost certain not to 
exist at all.
    The concern about this--I called and talked to Dave Peters 
about it briefly, and apparently some survey of this nature is 
already done routinely for projects. The problem is that this 
was listed in the final EIS as an amended forest plan 
direction, which indicates that there is something beyond that 
intended by it, a more comprehensive requirement for the 
surveys than what we believe would be warranted.
    We believe that this LOP should be changed, at least to be 
as site-specific as possible, and that it should be related to 
actual known locations of these frogs, not to all unsurveyed 
potential habitat.
    I would also like to put in a few words here about the 
fires recently experienced and still going on. It is too early 
at this time to determine whether one fuel reduction strategy 
or another would have worked better in this situation.
    What we do know is that at least for the Plumas and Lassen 
forests we were very lucky. In many places it was only the 
relatively calm winds that saved us from catastrophe. The most 
worrisome thing about the situation we actually faced was an 
almost immediate indication that Forest Service suppression 
capability was stretched pretty much to its limit. There was no 
capability apparent to be able to handle wind-driven fires if 
the wind had come up.
    The decisive advantage of fuel breaks is that in a bad fire 
situation the effectiveness of suppression forces is greatly 
increased. Now, we don't know at this time how well they will 
work, until the fuel break network is actually in place. So our 
job now is to implement the pilot project and monitor it 
closely to find out how well this will work in a truly 
potential catastrophic situation.
    Now, I have saved one subject, perhaps the most important 
one, for last. The pilot project cannot succeed unless it 
continues to be supported by earmarked funding to carry it out 
in full. On this subject, it is important to note that the 
final EIS shows that implementation of Alternative 2 will 
greatly improve the ratio of Federal revenues of Federal costs 
and hugely increase both direct and secondary economic activity 
in the QLG area. Frank Stewart will be addressing this subject 
in more detail later.
    But when you add the Federal and local economic benefits to 
the reduction in fire hazard, the improvements in forest 
health, and the previously unavailable information that this 
pilot project will give us, we believe it's a win-win-win-win-
win situation, and we, therefore, ask you to continue your 
strong support for the pilot project, and that you continue to 
monitor it closely, and that you recommend its continued 
funding for the entire five years.
    Thank you.
    [The prepared statement of Mr. Terhune follows:]

    [GRAPHIC] [TIFF OMITTED] T2242.001
    
    [GRAPHIC] [TIFF OMITTED] T2242.002
    
    [GRAPHIC] [TIFF OMITTED] T2242.003
    
    [GRAPHIC] [TIFF OMITTED] T2242.004
    
    [GRAPHIC] [TIFF OMITTED] T2242.005
    
    [GRAPHIC] [TIFF OMITTED] T2242.006
    
    [GRAPHIC] [TIFF OMITTED] T2242.007
    
    Mrs. Chenoweth. Thank you, Mr. Terhune.
    I want to thank both of the witnesses for your outstanding 
testimony--very informative, very good.
    Now the Chair recognizes Congressman Herger for his 
questions.
    Mr. Herger. Thank you, Madam Chairman.
    Mr. Jackson, environmental groups have criticized your QLG 
plan and the QLG bill. They say it is bad for the environment. 
What is your reaction or response to this charge?
    Mr. Jackson. They are wrong. Basically, the environmental 
movement has been right many, many times in the past and has 
provided a great service for the people of the United States in 
acquainting us to the problems that we face. But they are not 
very good at solutions. And it is time to move past problem 
identification in the solution building.
    In your district, as you know better than I, to 80 percent 
of the people want to take care of the environment, but only 20 
to 25 percent of the people would let anybody label them an 
environmentalist. And that is the distinction--is the solutions 
are about including everybody in the United States. The 
movement is about dividing everybody in the United States.
    And so it is time for some of us in the movement to step up 
and say that it is time to learn from everyone, and it is time 
to share information with everyone, and it is time to get on 
with real solutions. And I do believe that this has been 
instructive for the environmental movement.
    The normal demonizing that takes place when you disagree 
with the movement didn't work here, and it didn't work because 
the substance of the program was so good. And so I see this as 
very hopeful, and I believe that over time my environmental 
friends will be more interested in solutions than in simply 
advertising and propaganda.
    Mr. Herger. Thank you. I really believe what you have just 
stated is what literally makes this so historic in what we are 
doing. But I would like to follow this line of questioning just 
a little further, if I could, and would like to seek your 
reaction or response to the following allegations against the 
QLG. And we have read this in the media over and over again--a 
number of these--and again I would like your response if we 
could.
    The first one is that the QLG plan doubles logging.
    Mr. Jackson. The answer to that, as you well know, 
Congressman Herger, is from what base do we determine that it 
doubles logging? When I began to work in the environmental 
movement, the logging on the forests involved here was about 
460 million board feet a year. This will be somewhere between 
200 and 285.
    The logging done in this program is completely different 
than the logging done in the 1980s when we clear cut all trees 
as the appropriate method, according to the Forest Service. 
That is all that they gave the loggers was clear cutting all 
trees.
    This particular program is designed to improve habitat and 
to improve fire risk. So basically, I would say that this 
program is slightly less than what it ought to be over the next 
40 years. But the idea that it doubles logging, you would have 
to use the numbers from a level that is in everybody's mind far 
too little to come up with the idea that this program doubled 
something.
    You can look at it either way. It is either 60 percent of 
what it used to be or more than the lowest level ever reached 
in history. But we don't think that the number is important. If 
we do the right thing on each acre of land, the number will 
take care of itself.
    Mr. Herger. Thank you. The next allegation: the QLG bill 
was passed as a rider.
    [Laughter.]
    Mr. Jackson. As you know, Congressman, we had a healthy 
debate on the floor of the United States House of 
Representatives. We had a healthy debate in this Committee and 
in Congressman Young's full Committee. And George Miller, in 
both cases, did a magnificent job debating his position and his 
allies' position. And then we reached agreement between 
Congressman Young and Congressman Miller, and the vote was 429.
    And we had 100 votes in the Senate. We won in the Senate 
Committee 11 to 0. And then my environmental friends began to 
play the games at which they are so capable, and we ended up 
with mysterious holes on our bill, and we sat in the Senate for 
almost a year. And if it had been brought up for a vote at any 
time within that year, we would have had at least 95 of the 100 
Senate votes.
    And because the Democrats, a few Democrats, played a very 
fine procedural game, we did, too. And we picked a bill that it 
was clear would have to be passed. And we went to the 
leadership in both parties, and the leadership in both 
parties--every single leader had us on their list in both 
parties.
    And I would like at this point to tell you that we would 
not have had that kind of skill to enable us to get around the 
procedural hurdles, if we were not led by a man who probably 
did more than any single human being to help us through the 
thicket in Washington. And he sits right there beside the two 
of you Congresspeople today, Duane Gibson, and I want to thank 
him for what he did to help us know how to handle Washington 
procedure.
    [Applause.]
    Mr. Herger. For those of you who aren't aware of whether--
and understand what Mr. Michael Jackson is referring to, a 
great staff person, Duane Gibson, who has worked so well. All 
of us know we are only as good as the people we have working 
with us, and we certainly have outstanding staff in Duane.
    I want to thank you, and thank you for acknowledging that.
    Also, just to mention that every single Democrat in the 
House of Representatives, including George Miller, voted for 
this when it was before the House.
    Mr. Jackson. I would also like to point out that because we 
are a stickler for procedure that one of the first people in 
the United States Senate to vote for our bill was Senator 
Barbara Boxer.
    Mr. Herger. The next allegation: the QLG bill is a hidden 
subsidy for logging corporations.
    Mr. Jackson. One of the things that has disturbed me in the 
years I have been an environmentalist is this question of 
corporations as somehow a bad word, and subsidy as somehow 
wrong when it is applied to a corporation. I have heard 
regularly about Sierra Pacific and Sierra Pacific's role in the 
Library Group, and they have been wonderful in the Library 
Group, along with the other companies--Collins Pine, Big Valley 
Lumber, Birney Forest Product. They have all worked quite well 
with the rest of us, and they have been very, very fair.
    One of the problems that I have is that I was raised a 
liberal, and so I am kind of a watermelon. I am a little green 
on the outside and kind of pink on the inside. And I think some 
of my friends have lost the social argument, and this is one of 
the last places where we still talk a lot about capitalists and 
monopolists and all of those non-environmental words.
    And so I try to keep my politics and my environmental views 
separate, and I wish my friends in the environmental movement 
would do that. This is not a subsidy. This will pay for itself. 
It will pay for itself in terms of market prices, and it will 
pay for itself in terms of improvement in the ecology.
    So, basically, I am a little tired of hearing about 
monopoly practices in the forest when I have to go to computers 
that are run by Bill Gates. And if we are all going to worry 
about monopolies in this country, let us start with Windows----
    [Laughter.]
    ----[continuing] because they are much more effective and 
much more powerful than anybody in the timber industry.
    Mr. Herger. Thank you. And then, if you could respond to 
this quote. We have read this in virtually all of the national 
newspapers and locally. ``Congress and local counties seem to 
feel the best way to subsidize industry is to cut down public 
forests. I think it is just indicative of the fact that the 
only way the United States Forest Service can get increases in 
logging approved is circumventing real democracy.''
    Mr. Jackson. Well, I don't know how you circumvent real 
democracy. When you develop something at a local level, you go 
through the House of Representatives, you go through the United 
States Senate, and you have the President sign the bill. And 
then you go through the National Environmental Policy Act, and 
you have a good strong view taken of the viability standard and 
the potential of an endangered species.
    When you do all of that, it is really hard to think that 
you should give any credence whatsoever to the idea that we 
circumvented democracy. Congress is the democracy. The House of 
Representatives is the people's house.
    And consequently, the idea that somehow it is more 
democratic for a group of us who have legal skills to intervene 
in every activity of the Congress, every activity of the 
agencies with litigation, and that that somehow is democratic, 
and the process we took step by step through the bill process 
is anti-democratic, seems to me to make one wonder whether the 
urban elite universities are still as good as they used to be.
    Mr. Herger. Thank you. And finally, in this line of 
questioning, if you could tell us about CASPO, the California 
spotted owl, requirements as they relate to QLG EIS, and when 
do they apply?
    Mr. Jackson. The California spotted owl rules basically 
take what we know in terms of the science and apply it in as 
efficient a way as you can, given the uncertainty. They require 
that you not log any tree bigger than 30 inches dbh until it is 
clear what suitable habitat for the spotted owl and other old 
growth species really is.
    We believe that that is a good rule because we know we need 
big trees, we know we need big down material in the forests, 
but we know very little else for sure. So the CASPO rules are a 
reasonable approach given the uncertainty, and we intend to 
obey them.
    In the last days of the Library Group program, it became 
clear that there may be some new science about suitability of 
habitat. We do not want to avoid new science, but we want to 
make sure that the new science is an improvement on the old 
science before it gets applied to us. So we will monitor the 
new science in the framework document which is being prepared.
    When I started--after I had moved from Redding in 1977 to 
Quincy, and began to look at the question of habitat, it became 
clear to me in 1977 that we didn't know exactly what suitable 
owl habitat was. As I sit here in 1999, having read every 
document and gone to almost every meeting, I still don't know 
what suitable habitat is.
    So I think that the Library Group approach is exactly the 
right approach to take, given the uncertainty. It is 
conservative and cautious, but it is activity and not the zero 
cut that some of the folks in the environmental movement want 
for policy reasons.
    Mr. Herger. Thank you.
    Madam Chairman, I yield back to you.
    Mrs. Chenoweth. Thank you, Mr. Herger.
    I want to address this question to Ms. Blum. I am going to 
read to you from Public Law 105-277, which is the compliance 
section for the spotted owl. I want to read this into the 
record.
    ``All resource management activities required by subsection 
D shall be implemented to the extent consistent with applicable 
Federal law and the standards and guidelines for the 
conservation of the California spotted owl as set forth in the 
California spotted owl Sierra interim guidelines, or the 
subsequently issued guidelines, whichever are in effect.''
    [The information follows:]
    Mrs. Chenoweth. Now, this is the law relative to owl 
guidelines. Now, the Forest Service chose not to enter the owl 
habitat at all, instead of following the law. Now, I want to 
know, Ms. Blum, what your thoughts are for the record on that 
decision.
    Ms. Blum. I think the rules of the game got changed on us, 
and I think the rules are being changed, as Mike Jackson 
referred to, on the basis of some ``new science'' that hasn't 
been written up and published yet. It hasn't been subjected to 
scientific rigor and the normal kinds of debate, replication, 
and testing that is the hallmark of the scientific method.
    Instead what we had was--inexplicably to us, I might add--
literally after the draft EIS for the QLG project was released 
for public review, we heard about closed meetings among agency 
scientists at which they held discussions, and other agency 
scientists took those conversations as the ``new science'' and 
then attempted, in the last 60 days or so, to translate that 
into new science that would replace the California spotted owl 
interim guidelines.
    It seems ironic to me that when we began this back--and 
actually wrote up our community stability proposal and 
submitted it to the Forest Service -in 1993, it was a really 
big deal to have everybody say, ``Look, the CASPO interim 
guidelines are the rule. That is what we have to go with. We 
want to abide by them. We don't want to try to find loopholes 
in every instance and sort of push the envelope every time.''
    At the time, the political climate was one in which the 
environmental movement was afraid that Congress would slap 
sufficiency language on everything, that agency actions would 
be governed by ``these laws, notwithstanding,'' the kinds of 
language. We wanted to go by the book. We naively at that time 
thought that the environmental movement would respect that 
adherence to rule and adherence to legal and scientific 
process.
    That has, unfortunately, not been our experience this 
summer. The environmentalists waited until the public comment 
period had begun on the draft EIS before they brought forth a 
whole raft of ``new information'' about the way timber sales 
and other land disturbing projects had been implemented by the 
Forest Service over the last seven to 10 years.
    I don't personally believe that that information came to 
light after May of 1999. I think that they were building it for 
a long time, and I believe that they timed it to have the 
agencies go into a tizzy during the public comment period of 
trying to figure out how to avoid yet another species crisis 
under the Endangered Species Act.
    And so we arrived at this place this summer where the 
Quincy Library Group, as a group, and the law that was passed 
by Congress all say, ``We will implement these until these 
CASPO interim guidelines are replaced following the process set 
up by law.''
    And instead, we had the agency people working in the back 
rooms, trying to negotiate new management prescriptions, new 
standards of judgment about whether--the extent of effects that 
can be tolerated under any management scheme, and we sort of 
arrived rocking and rolling at the last minute to cross the 
finish line and sign the record of decision.
    I still firmly believe--I have a reputation for hanging 
tightly onto the National Environmental Policy Act. I still 
believe very, very strongly in the scientific process. I 
believe very strongly in the legal process. I think it protects 
all of us and all of our interests as citizens to observe those 
processes.
    What the real science is, what the true status of the 
California spotted owl is in the Sierra Nevada is still 
something that hasn't really been determined; there are a lot 
of questions. There are many, many ecological questions that 
haven't even begun to be discussed and debated publicly. There 
is a lot of research yet to be done, and yet we know enough to 
get started.
    And I think that is where the Quincy Library Group has 
been, is we had hoped in this process to have whatever new 
science was out there brought forward, but that it would be 
subjected to rigor, public disclosure, and discussion. 
Hopefully, we can find a better way to move forward with this, 
both in the Framework and during the pilot project 
implementation.
    Mrs. Chenoweth. It may surprise you, Ms. Blum, but I am one 
that likes to adhere very closely to NEPA, too, and for the 
very reasons that you have brought out in your comments.
    Ms. Blum. It works.
    Mrs. Chenoweth. It works. And although it is cumbersome and 
slow, it is--has been the one framework that has brought our 
thinking together. And the fact is that today we find ourselves 
trying to reach solutions without the rule of law.
    Ms. Blum. Exactly.
    Mrs. Chenoweth. And the Quincy Library Group legislation 
served as the rule of law, and yet we find that we still have 
situations where people are operating outside the rule of law. 
So there is no way we can come together in our thinking because 
it is too uncertain, as you have said.
    This kind of intellectual and scientific dishonesty not 
only destroys communities but the very environment and the very 
force of wildlife populations, wildlife habitat, watershed 
stability, the quality of streams. It destroys these very 
things we are all working for.
    So I am so impressed with your comments. They needed to be 
said. And we together--lawmakers, citizens--need to require 
accountability and require that we operate under the rule of 
law. We may not always think alike within our own frame of 
reference, but we have the rule of law to come together under. 
So thank you very, very much.
    I wanted to also turn to Mr. Terhune. You just thought you 
were getting out of a lot of questions, didn't you?
    Mr. Terhune. I have been quiet as a mouse here.
    [Laughter.]
    Mrs. Chenoweth. I wanted to ask you, did the QLG plan or 
the QLG EIS deal at all with time restrictions on entry for 
fuel break construction concerning sensitive species? And you 
also mentioned in your opening statements about the frog, this 
little frog, the red-legged frog. Is that listed as a sensitive 
species or a threatened species or endangered?
     Mr. Murphy. Endangered.
    Mrs. Chenoweth. It is? Okay.
    Mr. Terhune. It has been for some time.
    Mrs. Chenoweth. Okay. Please proceed.
    Mr. Terhune. I am not sure that--the timing of the--the 
first question had to do with the timing.
    Mrs. Chenoweth. Did the QLG plan or the QLG EIS deal at all 
with time restrictions on entry fuel break construction 
concerning the sensitive species?
    Mr. Terhune. Oh, I see. Yes. Well, in the limited operating 
periods, it would have that effect. On that, the two that I 
mentioned, the limited operating period would put--in some 
cases, if a species is found, it imposes a limited operating 
period. That could be a severe restriction because many of 
those operating periods span time when it is possible to get 
into those areas to work. A lot of it occurs during the summer 
period. So there would be some restrictions there, although we 
don't believe those would, for the most part, impose very much 
difficulty.
    The difficulty with the one I mentioned, with the red-
legged frog, is the uncertainty of the process more than 
anything else. It looks like it would be possible, not 
necessarily that it would occur, but it would be possible to 
use that language to insist on some rather onerous requirements 
for survey and proof that an almost nonexistent frog is not 
there. It is pretty difficult to do sometimes.
    So there are concerns there. I mentioned those potential 
difficulties because they seem to be introduced with this and 
brought forward in the final environmental impact statement and 
the record of decision in a way that wasn't included in the 
draft EIS. And it seemed to be making a point about it, not the 
continuation of existing procedures, but something new to the 
process, and that is the worrisome part.
    Mrs. Chenoweth. Mr. Murphy, I noticed you referring to 
either the plan or the ROD.
    Mr. Murphy. Sure.
    Mrs. Chenoweth. Do you have anything to add?
    Mr. Murphy. Specifically, Mrs. Chairman, that the 
particular wording that came in the ROD really has no 
justification and is of concern to us. It says, ``Limited 
operating periods will be applied to unsurveyed habitat 
considered to be suitable for threatened, endangered, or 
sensitive species.'' That is fine.
    Then it says, ``And to habitat considered suitable for any 
species for which viability may be a concern.'' What we have 
done is just in that one sentence included the problem that 
Judge Dwyer is dealing with in the northern forest plan, which 
was this open-ended, undeterminable list that anyone can then 
say, ``Well, there is a viability concern for deer,'' and we 
have to then stop until we survey for deer.
    So there is this strangely worded opening that we feel has 
the potential to undermine the entire process. And I think that 
the pressing need for the starting and going forward and 
implementing the proposal without those worries in hand is made 
very evident by the existing map of what is going on right now. 
And I will just put it up really quickly.
    Mrs. Chenoweth. Please do.
    Mr. Murphy. (Whereupon, Mr. Murphy used a defective lapel 
mike during the use of a map exhibit, reulting in the loss of a 
one minute and 32 second segment of his presentation.)
    Mrs. Chenoweth. And is today the first day that we have had 
winds?
    Mr. Murphy. Today is the first day in a week that we have 
had the wind.
    Mrs. Chenoweth. I wanted to ask you, Mr. Murphy, about fire 
modeling with regard to the new EIS and the ROD.
    Mr. Murphy. Well, thank you for that opportunity. That map 
is part of what we--the record of decision and the EIS process 
has gone through a very detailed section on fire modeling 
efforts. The Library Group was concerned after the SNEP 
project, which is the Sierra Nevada Ecosystem Project, that 
came out just preceding it--it has a whole section on fire, 
particularly large, catastrophic fires.
    And we have here the map showing the two known large, 
catastrophic fires surrounding the area that we are talking 
about. And, in particular, the one in the southeast corner 
stopped when it ran into the desert. It is the lowest fuel 
loading area of the forest. In fact, if anything, there is a 
mountain between those two fires of increasing fuel.
    And the modeling that was done basically decided in our EIS 
that fires end, or at least the modeling ended, at the end of 
24 hours, and that no fire has exceeded 7,500 acres in size.
    Now, in light of a 44,000-acre fire on the land base, a 
64,000-acre fire sitting adjacent to the land base, and six 
states--that is those two fires burned in a total of six 
burning periods--it is incongruous to us to understand why that 
level of analysis didn't include the potential for large, 
catastrophic fire.
    And so if that analysis had been done, and if the models 
aren't supportive of doing that kind of analysis, the models 
are not capable of predicting these events, then what NEPA and 
the National Forest Management Act says is bring in the best 
experts.
    Well, the best experts have just recently been convened in 
the Sierra Nevada Ecosystem Project, and they say the same 
thing--that there is a high risk of large fires, and that they 
recommend that the pilot project concept of defensible fuel 
profile zones needs to be rigorously tested and monitored. So 
it just seems odd that the EIS did not ever deal with this 
clear and present danger in terms of scale.
    Mrs. Chenoweth. That is a very good point. Do you think 
that a new model could be developed? What would that entail?
     Mr. Murphy. Well, I am not sure a new model necessarily. 
Sometimes nature, no matter how well we try to measure it, has 
its own way of dealing with these things. And certainly these 
events occur with combinations of wind and fire risk, weather, 
and so forth, that do not occur very often. I mean, as we see 
right now, we have many, many starts, and we don't have the 
wind. Well, the wind is coming, so, you know, the chances of 
this occurring are relatively low.
    But the risk, the issue which we want to point out, is when 
it happens--and clearly, in the last seven years it has 
happened twice, very, very close to us--that the amount of owl 
habitat and other species habitat that could be lost in a 
single three-day event swamps all of the potential risk of what 
our effort would do.
    And also, there is a time scale here that is really 
important to be brought out. A large, catastrophic wildfire 
takes centuries to become owl habitat again. A defensible fuel 
profile zone is owl habitat within--in many cases, it is owl 
habitat the day it is finished. But it likely is only at most 
five to 10 years from becoming fully suitable nesting habitat 
again.
    And so here we are looking at this minor adjustment in 
habitat in currently unoccupied habitat that the normal QLG 
proposal would have done, whereas the ROD now avoids owl 
habitat altogether. But we are looking at the alternate to that 
is removal of that owl habitat for a better part of the next 
century.
    Mrs. Chenoweth. Well, your comments are so well taken. It 
makes me wonder--there are intelligent people inside the Forest 
Service, as we know--why can't they see this? There is a far 
greater impact in not implementing the Quincy Library plan than 
in just letting it exist as it is; the impact being we destroy 
the forests, the wildlife, the community.
    Sometime we are going to have to come to grips, Congressman 
Herger, with what is really driving this because it isn't 
science, it isn't wildlife habitat, it isn't wildlife, it isn't 
forest health, because everything that is happening out there 
defies reasoning. We have highly intelligent people working in 
the agencies, and yet we see this kind of intellectual and 
scientific dishonesty still emerging that creates confusion.
    There is something beyond this, and I am not able to get my 
hands on it.
    Mr. Murphy, do you have any comments?
    Mr. Murphy. Well, I am not sure that there is an answer to 
that question. I think the best possible thing we can do is 
admit we do not know, and then, as the laws require, we go 
forward with a monitored pilot project of an experiment to 
test. And we have to test that experiment at the scale of the 
problem.
    If the problem is anywhere from 40 to 190 million acres of 
the west, this million and a half acre area of an experiment is 
tiny in comparison, but it is absolutely crucial that we go 
forward with it quickly, that we have the monitoring in place 
so that we will know more than we know today, and we can begin 
to move beyond these what appear to be honest scientific 
disagreements.
    But that is the only way I can see that we can go forward 
is to take carefully crafted, very restrictive controls to go 
forward with, and also really put in the monitoring that is 
necessary to be able to know those answers five years from now.
    Mrs. Chenoweth. Well, I think in part Mr. Jackson answered 
my question in his testimony, because until we have the 
decision makers in Washington, DC, and those who are 
speculating in academia, begin to develop a great respect for 
the common sense of the people on the ground, we are going to 
continue to have to deal with vague theories instead of 
scientific facts.
    I want to thank all of you very much.
    I want to ask Congressman Herger if you have any further 
questions that you would like to ask before I close the panel.
    Mr. Herger. Thank you, Madam Chair. Maybe one last, if I 
could, and that would be, what steps would you suggest to the 
Forest Service to get the project implemented quickly? And what 
type of schedule would you suggest for implementation? And are 
you consulting with the Forest Service now? Whoever would like 
to respond to that. Ms. Blum?
    Ms. Blum. It is the intention of Quincy Library Group 
Steering Committee that of course we will be available for 
whatever consultations. We have in the past, and we will 
probably do so in the future, suggest to the project manager 
for the Forest Service, or to other Forest Service officials, 
that we get together in a public sense, not just the Quincy 
Library Group.
    It is almost like we don't want to walk into the backroom, 
just like we don't want anybody else to walk into the backroom. 
We believe that public disclosure and public discussion is 
probably the solidest and the most efficient way to get to a 
long-lasting, reasonable, legal solution for many of these 
resource conflicts that right now there seems to be no obvious 
resolution to them.
    I think that we intend to participate in all of the project 
level planning processes within the normal public venues, 
probably more enthusiastically than we have bothered the Forest 
Service in the past. But in addition to that, we will clearly 
be available. We intend to continue to participate actively in 
the Sierra Nevada Conservation Framework planning process also.
    And I think our hope is that the Forest Service will 
continue to work on finding ways to collaborate and cooperate 
with the public, which is who they serve.
    Mr. Herger. And I know this was a problem for awhile, and I 
want to thank the Forest Service. I did contact them and they 
were very good on, I understand, getting together and having 
meetings here in the last several months. And I want to commend 
the Forest Service for that.
    Do you have any steps that you would suggest to the Forest 
Service to be able to get the project implemented quickly? Mr. 
Terhune?
    Mr. Terhune. I think the key to that is that in the draft 
EIS and the final EIS there is analysis which is based largely 
on example-type things, not pinned down and not detailed 
enough. But the first step is to apply and take a--apply the 
newer concepts that have come out about the final EIS, to go 
back and apply them to those sketch maps, go back and apply 
them to the tentative distinctions that were made on where 
might be the best place to implement this.
    And one thing that has to be done, if we are going to avoid 
that habitat, is now in the mitigation and constructing the 
DFPZs. The obvious way to do it is to take another look at 
those maps, see where those DFPZs might be better located, to 
avoid the necessity for the gaps in the DFPZ system, to make it 
continuous, to make it effective, and at the same time do the 
best possible job of avoiding the habitat that is the problem.
    Those are the problems I think that are immediately to be 
worked on, and it is--in a sense, it is a fortunate timing here 
because that is the kind of thing we can work on, that they can 
work on in this rest of the summer, in the fall, and have some 
good projects actually ready to hit the ground in the following 
season.
    The first thing we should be doing, I believe, is taking 
another close look at criteria for how are we going to decide 
where these projects should go, make sure that it gets off the 
ground in a good, solid way--at that stage. That will give us 
the best possible protection from successful attack in appeals 
and in litigation.
    So it is crucial that in the next month or so when we get 
the information, where are those--how should those maps be 
drawn? That is the kind of thing that can very well be 
discussed and indicated in the immediate future, but put a very 
solid foundation for the rest of the project.
    Mr. Herger. You're hitting on this a bit here, but also my 
question is, what type of schedule would you suggest for 
implementation?
    Did you have a comment?
    Mr. Jackson. Yes, I did. I think it is absolutely critical 
that we get across the question of pace. In our county, the 
average fire cycle is between seven and 12 years. This project 
was designed to be actually slower than that, more conservative 
than that. The way it could fail is if we don't do it at a pace 
that would be necessary to effect the landscape.
    And I guess what I'm saying is this question of 
uncertainty, a doctor has it every time he sees a cut. But 
because he is uncertain doesn't mean that he only does three 
stitches and leaves the rest of it open. This project is 
designed to go forward at a pace necessary to deal with the 
scale of the landscape.
    If in the first year we don't reach the 40- to 60,000 
number, it will be a sign that the Forest Service is not giving 
a full effort. Their excuse, if they have one, will be that 
they don't have the funding.
    So the question of pace becomes two things. Do we have the 
funds? And the second thing is, does the Forest Service proceed 
at enough of a pace to demonstrate the effectiveness of the 
program? And so, to us, it is all a matter of appropriate pace 
to deal with the scale of the problem. And in that regard, then 
the one and a half million acres that we are dealing with can 
truly serve as a model for the other 40 to 191 million that 
people identify as having the same set of problems.
    I think anybody who has seen the Boise front during fires 
is well aware that this problem is not endemic only to the 
Northern Sierra Nevada. And for us to be useful, for Congress 
to have dealt with everyone's problem equally by beginning 
here, we need to show the pace and the landscape effect. And so 
a smaller project is the only way that we can finish, in my 
opinion.
    Mr. Herger. And I think that brings into play the absolute 
necessity of a continual consulting with those of you who 
actually put together--put the science together and the plan 
together specific for these three national forests. And that is 
really the great pleasure, the great satisfaction I have had as 
a member of Congress, is unlike so many pieces of legislation 
this isn't something we--3,000 miles away--wrote.
    This is legislation that the community, all of the 
factions, environmental community, the wood products, everyone 
working together, those of you who live there put this 
together--why it is so crucial that we have a very regular 
consulting between yourselves and the Forest Service to ensure 
that this is implemented in the way it was intended and in the 
way that the Congress voted virtually unanimously, bipartisan--
Republican, Democrat, conservative, the liberals, everyone--to 
see that it happened.
    Thank you very much.
    Mrs. Chenoweth. Thank you, Mr. Herger.
    I have just one final question for Mr. Terhune. And I 
wanted to ask you about the Grazing Committees. Have the 
cattlemen's concerns been met? And is there some way to be able 
to bring the cattlemen into the mix that QLG plan 
implementation in the future does not adversely affect their 
operations?
    Mr. Terhune. I am probably not the most familiar with 
cattlemen issues on this. But to the best of my knowledge there 
has been participation, and their concerns have been heard 
throughout the process. That doesn't mean that we purposely 
took on the task of settling all cattle problems between 
cattlemen and the Forest Service.
    It meant that we attempted to keep this program at least 
neutral with regard to the issues involved. And we don't 
believe that we have done harm to the long-term interests of 
the cattle industry. We do hope that they will continue to be 
involved in implementation to take care of their interests as 
well as anybody should.
    We are not attempting--and we believe that this legislation 
has been designed and specifically provides for adequate 
protection--full protection of the cattlemen's association and 
the cattlemen's interests. They will certainly continue to be 
heard, as they should. I don't know if they have anything to 
say on this.
    Mrs. Chenoweth. Mr. Jackson, do you have any comments about 
that?
    Mr. Jackson. Certainly. One of the most thrilling things 
about the Library Group program is watching the spinoffs. I 
went to a meeting recently of the Sierra Nevada Alliance, which 
is a group of grass-roots environmental folks throughout the 
Sierra Nevadas, and was just thrilled to sit there and listen 
to a joint presentation of the environmentalists and the 
Cattlemen's Association about how they were working out the 
problems, doing trail rides together, meeting with each other, 
working on solutions.
    The cattlemen now have their own land conservancy, so that 
they can keep their families on the land and still handle the 
riparian zones in a way that provides environmental quality and 
a certain payment to the farmers because of--and the cattlemen 
because of the changes they need to make.
    It is not something done by the Library Group. It is these 
folks' own Library Group program, and it thrills me to watch it 
begin to happen. And I would like to give a lot of credit to 
both the California Cattlemen's Association and the California 
environmental movement for what they are doing.
    Mrs. Chenoweth. Well, you have certainly set a fine 
example, and this is a great spinoff. And I am very, very 
pleased to hear about it.
    For the record, as Chairman, I do want to say for the 
record my concern is that the legislation that we passed did 
not do damage to any use rights. And I will be watching very 
carefully to make sure there is no delegation of authority that 
has been given that may accomplish any kind of violation of 
anyone's property use rights.
    And so I did want to say that for the record, because I do 
not want to see the QLG legislation used or interpreted in a 
manner that would do damage to any industry group or any 
environmental group, any of our users of our national forests.
    So, again, I think it all boils down, as you have said so 
aptly, to an ongoing respect for the common sense of the people 
on the ground. And you have demonstrated something that we in 
the Congress have been hoping we could, and we have been your 
assistants, and we will continue to be your assistants as you 
drive the solutions home.
    Thank you very much for your fine testimony. I look forward 
to working with you as we see the success of this program 
develop. Thank you.
    And I call the second panel--Mr. William Stewart, Chief, 
Fire and Resource Assessment Program, California Department of 
Forestry and Fire Protection, in Sacramento, California; Ms. 
Fran Roudebush, Plumas County Supervisor, District 1, Quincy, 
California; Mr. Frank Stewart, Counties Quincy Library Group 
Forester, Chico, California; and Mr. Dick O'Sullivan, 
California Cattlemen's Association Public Lands Committee, 
Sacramento, California.
    Mrs. Chenoweth. I want to thank the witnesses very much for 
joining us here today. And as you can see, we are sort of 
letting the rules relax because we want to take as much time 
and opportunity to hear from you on the record.
    As you know, it is the plan of the Chairman to place all 
outside witnesses under the oath, and I believe that you have 
been given a set of rules--the Committee rules--that address 
this issue. So at this time, I wonder if you might stand and 
raise your hand to the square, your right hand.
    [Witnesses sworn.]
    To begin testimony, we call on Mr. William Stewart.

    STATEMENT OF WILLIAM STEWART, CHIEF, FIRE AND RESOURCE 
ASSESSMENT PROGRAM, CALIFORNIA DEPARTMENT OF FORESTRY AND FIRE 
                     PROTECTION, SACRAMENTO

    Mr. William Stewart. Thank you, Madam Chairman, Chairman 
Chenoweth, and Congressman Herger. My name is William Stewart, 
and I am representing the California Department of Forestry and 
Fire Protection. Director Andrea Tuttle couldn't be here today 
because she is at our State Board of Forestry and Fire 
Protection meeting in Sacramento.
    But I am, as you have heard, the Chief of the Fire and 
Resource Assessment Program for CDF, and we are responsible for 
doing the Department's analysis of the QLG activities as well 
as responsible for coordinating responses with the other 
relevant state agencies.
    For all departments, I want to welcome the opportunity to 
provide some input, not only from CDF but also the Department 
of Fish and Game, as well as our Resources Agency.
    A little bit of background--I have a Master's and Ph.D. in 
Forest Economics from one of those elite universities that Mr. 
Jackson so lovingly referred to, and have been involved in a 
number of these activities. I was a consultant for some 
California issues on FEMAT, have worked on one of the early 
California spotted owl assessments on some of the economic 
impacts, and was also a principal resource economist for the 
Sierra Nevada Ecosystem Project for about two years, up until 
1996 when I joined the State.
    Given that the Forest Service has made the programmatic 
decision to select Alternative 2 with the mitigation package, I 
want to direct my comments to actions we see as necessary for 
effective implementation of this project. Effective 
implementation of the project is what Congress is asking for, 
so that we can learn from this and not just create more 
studies.
    My office has already reviewed large studies on the Sierra 
Nevada, and I personally don't want another one to have to read 
again. I think these comments are consistent with the record of 
decision, and I think the interests represented by all of the 
stakeholders.
    We see three areas that we think are going to need to be 
bolstered in some ways during the implementation project. The 
first is a monitoring and adaptive management framework with a 
strong scientific basis so that we can learn from this pilot 
project. As we heard in the previous session, there is a lot of 
uncertainty. But if we just wait and leave uncertainty as a 
reason to do nothing, we will never move forward on that.
    Second we are dealing with a lot of fire related issues, as 
was pointed out earlier. When we don't have high winds in 
computer models, we can miss what really drives how many burnt 
acres we have. In our fire modeling, we have probabilities of 
all fires up to about 200 acres, and after that we just call 
them ``big.'' We don't know how big the fire is going to be at 
that time, but you do have to address that fact, and there are 
ways beyond the standard engineering approaches that we need to 
address the issues of fire risk in the Northern Sierra Nevada.
    I think central to that need is a more transparent fire 
planning process. We read nearly all of the different fire 
modeling for the Sierra Nevada as well as for the rest of the 
state. There are many different aspects and many different risk 
factors, and there are many different potential impacts that 
are all involved.
    What is necessary is to continue our work with the Forest 
Service as well as the QLG on promoting approaches such as a 
California Fire Plan, which is an approach we have used before 
that covers all private and Federal lands, to try to bring all 
of the pieces together and make some decisions that makes the 
process move forward.
    I will put in the record a copy of the Fire Plan. And just 
as an example, look on our web page. We have an example of the 
fuels that we developed with the other agencies--with the 
Forest Service and the BLM. The example map was a piece of the 
QLG area. There is a small cross-section that shows the 
different fuel types that can be used in modeling, so that we 
can all work from the same basic data and don't have one set of 
people using this model, someone else using this model, and 
someone else bringing up an anecdote, a memory from their 
childhood or whatever. We need some clarity and some 
consistency among all of the agencies and the stakeholders.
    And, third, it is necessary to have integration of the 
economic analysis into the implementation, monitoring, and 
assessment. The QLG bill, as written, would take into account 
the economy of this area. I think in the draft EIS it is buried 
in the back. I think it is going to be very important to make 
sure we bring in a cost-effective approach toas as a pillar of 
a working landscape management for the forests of California.
    And I just hope that can be brought in because the cost-
effectiveness mandate from Congress is set forth very strongly. 
And we hope that that is the road we are on and we don't sit 
around and argue about unknown lifestyles of red-logged frogs.
    I think we all agree on the value of working with locally-
based processes, such as the Quincy Library Group, the 
importance of creating a forest landscape that is better suited 
for fire than the one we have created to date, and to really 
provide the mix the benefits of managing a national forest as 
working landscapes that, both produces commodity and non-
commodity benefits from the national forests. I think the 
complexities of this issue require that we move towards a more 
transparent model, understanding where we are going, as opposed 
to the planning processes that we have now.
    I think that opportunity has now begun to finish the EIS 
process, and I think it is important to not look at these 
models just to get it through the hurdles of NEPA but to 
actually use it to involve all of the stakeholders and learn 
from what we are doing.
    One thing I would like to mention is that during the draft 
environmental impact statement, the Department of Fish and 
Game, in our comments that we submitted earlier, did focus on 
the need to predict and to monitor the potential impact on key 
wildlife species.
    It is an ongoing issue. We weren't asking for immediate 
action, but rather to have a scientific approach to learn as we 
move along on how species are impacted, not just the California 
spotted owl but all of the species, not just in the National 
Forest but also in the DFPZ. And I think we can learn a lot and 
move forward on many of these things, so that after five years 
we have a much better understanding of how this works.
    I mentioned again just some of the work on the California 
Fire Plan. I need to emphasize that we must utilize what we 
have across all of the agencies--the common information based 
on fuel types, fire regimes, fire models, and wildlife models. 
The problem is many of these models were built for specialists 
to use, but in this process they need to be understandable by 
the public and the stakeholders.
    We are committed. My director has involved the resources to 
commit some of our scientific personnel to work with the Forest 
Service, to get models and information that works for all of 
the stakeholders.
    And finally, as I mentioned before, this is a very 
important project for us from a regional economic point of 
view. There are enormous benefits described in the 
environmental impact statement that could come out of this. We 
have also looked at the harvest aspects and feel they will not 
harm the recreational use of the national forest, which is 
really the other national value here. I think these two aspects 
are very complementary, and I think they should be ensured that 
they stay that way.
    Finally, I would like to just provide my appreciation for 
having this hearing. I want to extend the offer from Director 
Tuttle and her staff that we would like to work with the Forest 
Service, as well as the Quincy Library Group stakeholders, to 
move this process forward. We see this as a learning experience 
on how we all in California can manage both private and public 
forests in the west for the benefit of all.
    Thank you.
    Mrs. Chenoweth. Thank you very much, Mr. Stewart.
    [The information follows:]
    [The prepared statement of Mr. William Stewart follows:]

   Statement of William Stewart, Chief, Fire and Resource Assessment 
 Program, California Department of Forestry and Fire Protection on the 
Herger-Feinstein Quincy Library Group Forest Recovery Act Environmental 
                            Impact Statement

    Dear Madam Chairman Chenoweth
    My name is William Stewart and I am representing the 
California Department of Forestry and Fire Protection (CDF). 
Director Andrea Tuttle was not able to be here as she must 
attend the State Board of Forestry and Fire Protection meetings 
in Sacramento. The Fire and Resource Assessment Program of CDF 
was responsible for our department's analysis as well as the 
coordination with other relevant state departments. CDF's Fire 
and Resource Assessment Program is responsible for analyzing 
trends in the state's natural, social, and economic systems; 
monitoring and assessing the condition and availability of 
wildland resources; and identifying alternative responses to 
changing trends and conditions. Our mandate covers private, 
state owned, and Federal wildlands. Prior to joining the state 
I was a forest and regional economic consultant on numerous 
projects such as FEMAT (1993) and the Report of the Policy 
Implementation Planning Team to the Steering Committee for the 
Californian Spotted Owl Assessment (1994). From 1994 to 1996 I 
was the principal resource economist for the Sierra Nevada 
Ecosystem Project (SNEP).
    The California Department of Forestry and Fire Protection 
welcomes the opportunity to comment on the Herger-Feinstein 
Quincy Library Group Forest Recovery Act now that the Final 
Environmental Impact Statement and Record of Decision are out. 
In addition to my primary task of representing CDF, I will also 
summarize the main points of the California Resources Agency 
and Department of Fish and Game that were also sent in comment 
letters to the U.S. Forest Service in July 1999.
    I would like to reiterate the offers from Secretary for 
Resources Mary D. Nichols, CDF Director Andrea Tuttle, and DFG 
Director Robert Hight for continued technical assistance in 
areas of strong mutual interest.
    Given that the USDA Forest Service has made the 
programmatic decision of selecting Alternative 2 with a 
mitigation package, I will direct my comments towards actions 
we see as necessary for effective implementation of a project 
that will have significant positive impact on fire risk, forest 
management, and economic vitality in the region. Overall, we 
see to strengthen three areas of the project:
        <bullet> A monitoring and adaptive management framework with a 
        strong scientific basis so that we can learn from the pilot 
        project.
        <bullet> A more transparent fire planning process similar to 
        the California Fire Plan that combines the numerous assets, 
        fire risk factors, and potential impacts of fuels treatments to 
        guide implementation and assessment of site specific projects
        <bullet> A greater integration of economic analysis into the 
        implementation, monitoring, and assessment of individual 
        projects to meet the cost-effective mandate of the Act.
    We agree on the value of working with locally based 
processes, the importance of creating a forest landscape better 
suited for fire, and the benefits of managing national forests 
as working landscapes that produce a sustainable mix of 
commodity and non-commodity resources. The complexity of the 
issues requires a planning tool that can effectively integrate 
the different issues for different stages of the process 
(strategic planning, implementation, and monitoring) as well as 
for different users (analysts, implementers, and stakeholders). 
More specifically, we proposed that the USFS use a rigorous, 
scientific process, such as or similar to the California Fire 
Plan, for identifying areas with the greatest assets at risk to 
fire, areas with hazardous fuels accumulations, areas prone to 
severe fire weather, and areas where an unacceptable number of 
fires have escaped initial attack. A more thorough description 
of the California Fire Plan can be viewed on our web sites 
(hftp://frap. cdf.ca. gov/fire-plan/, http://
www.firesafecouncil.orgfirgplan.html), and http://frap.cdf 
ca.gov/data/fire data/hazard/mainftames.html.

Apply Adaptive Management

    Our earlier comments stressed that, to be meaningful, the 
pilot project should apply a range of fuel management and 
silvicultural treatments and carefully monitor them over time 
for the achievement of desired outcomes. A cost-effective, 
statistically-based sampling system that measures the cause and 
effect relationships of different management activities is 
necessary to ensure that the pilot project is a productive 
learning and demonstration experience as Congress has indicated 
it to be. Without the collection and analysis of monitoring 
data, applying one or two treatments (reserves being a type of 
treatment) across a varying landscape for five years will 
provide limited insight into sustainable forest management. The 
scientific review panel called for in the HFQLG Act could be 
used to ensure that treatment approaches and monitoring results 
allow for this learning. CDF is willing to provide some of our 
professional staff to the scientific review panel.
    The technical details in terms of harvest units, standards 
for important habitat components at the forest stand level, 
layout of defensible fuel profile zones (DFPZs) in terms of 
linear or area design, how they interact with riparian systems, 
prioritization based on effectiveness of reducing probability 
of catastrophic fire losses, etc., will all require further 
refinement beforehand and rapid feedback during adaptive 
management. An adaptive management approach should be used to 
provide for the collection of critical monitoring data and the 
alteration (of kind, scope, or placement) of management 
activities needed to avoid adverse environmental impacts or 
other violations of Federal law.

Monitoring and Adaptive Management

    Monitoring efforts will be crucial if we all are to learn 
from this effort. It should include post-project compliance and 
effectiveness monitoring. Compliance and effectiveness 
monitoring should be designed to inform an adaptive management 
process. The Department of Forestry and Fire Protection and 
USFS State and Private Forestry have successfully collaborated 
on the development of change detection methods for vegetation 
canopy cover that could inform a monitoring and adaptive 
management effort. (htty://fray.cdf ca.gov/projects/change 
detection/change detection projecthtml)
    The analysis of the alternatives does not disclose the 
longer-term impacts of the proposed vegetation treatments. 
Analysis is specific to the immediate impacts associated with 
project implementation but does not describe the longer-term 
impacts of habitat protection that may result--e.g., the 
reduction in loss of California spotted owl habitat due to 
catastrophic wildfire, or the faster rate at which stands 
treated with single tree selection develop old forest 
characteristics. Where short-term adverse impacts are 
identified, these should be considered in the context of 
longer-term, often positive effects. The potential long-term 
effects on vegetation should be described when they have been 
modeled.

Wildlife Habitats Across the Whole Project Area

    The concerns of the Department of Fish and Game (DFG) 
focused on the need to more accurately predict and monitor the 
potential impacts on key wildlife species. The DFG was 
specifically concerned that the treatments as proposed in the 
DEIS could have serious negative impacts on spotted owl habitat 
based on the metrics used in the DEIS (e.g. percentage of 
suitable habitat within preferred ranges, loss of important 
habitat elements after silviculture prescriptions, habitat 
degradation outside of defined sites). Given the existing 
information demonstrating a decline in the lambda estimate of 
California spotted owl in the project area, DFG stressed the 
need for a conservative approach. Based on their initial 
reading of the Record of Decision, DFG considers it essential 
that the mitigation measures be implemented and that the 
monitoring process is thorough enough to increase our 
understanding of the relationship of California-spotted owls 
and forest structure. DFG also stresses the need to consider 
and monitor wildlife habitat attributes in the DFPZs and other 
land management activities.
    The Department of Forestry and Fire Protection has far 
fewer biologists than the Department of Fish and Game but is in 
agreement that the relationship between owls and silviculture 
treatments must be empirically documented and analzed during 
the implementation phase. CDF noted that the original CASPO 
report (p. 82) presented a weak linear, not threshold, 
relationship (a correlation of 0.60) between ``suitable 
habitat'' as classified by the USFS and owl density. The Bart 
(1995) article quoted in the DEIS also noted a linear, rather 
than threshold relationship. In addition, CASPO also reported 
owl use of areas twenty years earlier on the Lassen National 
Forest still provided habitat benefits that were roughly one 
third of that measured for suitable habitat (p. 173). Given the 
potential variability in the prey base and specific habitat 
elements that would affect the prey base, the relationship 
between suitable habitat and adult survivorship may not be the 
only important relationship that needs to be addressed. Both 
CDF and DFG strongly support the integration of the mitigation 
and monitoring components into the selected alternative.

Fire Risk and the Costs and Benefits of Fire Risk Reduction 
Activities

    As mentioned earlier in the description of the California 
Fire Plan, CDF wants to ensure that state and Federal fire 
protection efforts are well coordinated. The understanding of 
the relative effectiveness of different spatial arrangements of 
fuel modification programs is constantly improving. An 
interagency group in California works together to ensure that 
all departments use the same high quality fuels layer. A good 
example that coincidentally covers a section of this project 
area is highlighted on our web site (http://frqp. edf. ca. gov/ 
data/ fire data/ fuels/ fuels.htm) and is also attached to this 
document. We also believe greater coordination on fire planning 
modeling and monitoring could significantly improve both the 
USFS's and CDF's ability to plan and implement effective 
activities to reduce fire risks.
    As designed, the DFPZ strategy has two major components: to 
reduce fire severity (and, hence, adverse effects) on treated 
areas and to limit fire size such that untreated areas are not 
subject to high severity fires. Using a range of mixes of 
linear and area DFPZs could significantly the overall 
effectiveness of the program. Many of these technical issues 
could be effectively explored if a rigorous, scientific 
planning tool similar to the California Fire Plan was used. 
Providing the planning tool in a forum where it could be used 
by stakeholders to explore different potential outcomes would 
be beneficial. We would be very willing to work with the USFS 
and the local stakeholders during this process.

The Need for Clearer Descriptions of Probable Long Term Impacts

    The difficulty of discerning the probable outcomes of the 
pilot project as described in the DEIS makes it clear that the 
Forest Service needs to develop a more transparent decision 
support system that is based on good science and incorporates 
multiple variables. Hopefully, this will be one of the valuable 
outcomes of project implementation.
    It is central to the selection of an alternative to assess 
the long-term positive and negative effects of each 
alternative. Such an assessment would include an evaluation of 
the relative effectiveness of proposed land treatments to 
protecting areas of importance or resource value from 
catastrophic fire effects. The DEIS should describe how the 5 
year plan will affect future forest management. Although timber 
growth and harvest modeling extends into the future for a 
century, similar assessments are not developed in even a 
qualitative manner for other resources. In addition, there is 
little description of forest management and intensity of land 
treatment in areas not occupied by California spotted owl PACs 
and SOHAS.

Proper Citations from Sierra Nevada Ecosystem Project Chapters

    The DEIS' use of the Sierra Nevada Ecosystem Project (SNEP) 
Report is often selective. The most significant problem is the 
claim that the DEIS follows SNEP in using the LS/OG and ALSE 
systems for defining individual polygons for resource 
management. Beyond the specific chapters with unique authors in 
SNEP Volumes II and III and the Addendum, the applicable 
reference from SNEP regarding old growth forests would be 
Volume I, Chapter 6 on ``Late Successional Old-Growth Forest 
Conditions.'' This chapter presented three, not one, equally 
plausible strategies to counter the major declines in late 
successional forests that were found during the SNEP 
assessments. ``Strategy 1: Areas of Late Successional 
Emphasis'' corresponds to the information included in the DEIS. 
However ``Strategy 2: Distributed Forest Conditions'' and 
``Strategy 3: Integrated Case Study'' are also SNEP strategies. 
Strategy 3's focus on integrating seven different goals-late 
successional forests, vegetation, wildlife habitat, watershed 
and aquatic areas, fire protection, community well-being, and 
private land contributions to ecosystem sustainability--is a 
more realistic SNEP strategy that should have been referred to 
in the DEIS.
    The use of non-repeatable forest classification schemes to 
delineate specific treatment areas will present a serious 
challenge for accurate monitoring. The LS/OG and ALSE 
characterizations are critical since they are the major 
difference between the alternatives but may or may not be the 
most important acres for California spotted owl habitat and 
defensible fuel protection zones. We would suggest that the 
Forest Service utilize their existing forest inventory and 
analysis program to track the effects of different management 
prescriptions in a rigorous manner.

Economic Impacts for a Region with High Unemployment

    Alternative 2 will make very large contributions to the 
local and regional economies. This information should be 
included in the ``Summary Comparison of Alternatives'' in 
Chapter 2. Compared to Alternative 4, Alternative 2 would 
infuse an additional $381 million in personal income and $760 
million of total sales into the eight-county project area over 
the five-year project period. In addition, on an annual basis, 
Alternative 2 would directly or indirectly create over 1,600 
annual new jobs more than would be created under Alternative 4. 
As shown in the DEIS, this level of activity would reduce the 
region's currently high unemployment rates to close to the 
state average.
    Impact beyond those directly in the forest products 
industry. No tradeoff with recreation related employment. Based 
on our analysis of EDD data.

Conclusion

    The HFQLG pilot project represents a major opportunity for 
the state and Federal Governments to work together on landscape 
level vegetation management to protect public safety and to 
protect and enhance environmental values. We ask that the 
Forest Service, as it moves forward with analysis and 
implementation of the pilot project, engage in a more 
meaningful way with the department.
    The Forest Service needs to begin immediately to develop 
the monitoring and adaptive management framework necessary for 
meaningful implementation of the pilot project. Variations in 
on-the-ground design of DFPZs and timber harvest units will 
provide valuable information to guide resource management in 
both the short and the long term. Without a clearer 
presentation of the individual components and an adaptive 
management approach, this information will not be garnered. 
Also, the Acts mandate to be cost-effective requires a greater 
integration of economic analysis into the implementation, 
monitoring, and assessment of individual projects conducted 
under the pilot.
    Again, the department appreciates the opportunity to 
comment on the DEIS. My staff and I are willing and interested 
in working with you to help make the implementation of the 
HFQLG Act a successful and educational pilot project that 
enhances the environment while providing significant economic 
opportunities. We strongly encourage the Forest Service to make 
the necessary modifications to its DEIS and implementation 
plans for the pilot project to ensure this outcome.

    Mrs. Chenoweth. The Chair now recognizes the forest 
supervisor from Plumas County, Fran Roudebush, for your 
testimony.

STATEMENT OF FRAN ROUDEBUSH, PLUMAS COUNTY SUPERVISOR, DISTRICT 
                     1, QUINCY, CALIFORNIA

    Ms. Roudebush. Good morning, Chairman Chenoweth, members of 
the Committee, Congressman Herger. Thank you for being here and 
for allowing me to participate in this panel. I am Fran 
Roudebush, Chair of the Plumas County Board of Supervisors. I 
am also representing the Regional Council of Rural Counties, 
which consists of 27 member counties in California. I also 
represent the Environmental Services Joint Powers Authority of 
RCRC.
    Eleven counties have submitted letters or resolutions of 
support for the QLG plan and Alternative 2. Six of those 
counties are: Yuba, Butte, Glenn, Modoc, Trinity, and Siskiyou 
Counties. But five other counties--Plumas, Tehama, Lassen, 
Shasta, and Sierra Counties--boards have worked cooperatively 
and jointly and hired a forester to ensure that the 
congressional vote of 429 to 1 in favor of the Herger-Feinstein 
Quincy Library Group Forest Recovery Act bill is fully 
implemented. These counties represent 92 percent of the acres 
in the QLG plan.
    We have letters of support from the Northern California 
Supervisors Association and the California State Association of 
Counties. I have enclosed several of these letters or 
resolutions to introduce into the record.
    We believe that the end result of full funding and 
implementation of the QLG pilot project will be protection and 
enhancement of wildlife habitat, our watersheds, and all other 
national forest resources. This is important to our rural 
counties and those who depend on us for tourism, clean water, 
and business vitality.
    A viable business community is essential to the overall 
well-being of our schools, families, and future growth 
potentials. This is what the QLG plan offers to many, if not 
all, of the communities within the QLG land base. Over the last 
eight years, our schools and roads have suffered greatly due to 
the decrease in timber receipts. In Plumas County alone, we 
have gone from an annual high of almost $9 million to a low of 
$1.5 million.
    I have included information for the record from the '92/'93 
school year showing some of the cuts the district had to make 
due to lack of timber receipts. During the '93/'94 school year, 
the district had to cut 33 percent of its staff--30 teachers 
and 10 classified employees. Since then, several teachers have 
been replaced, and three classified employees have been 
replaced, due to changes in California funding for smaller 
class sizes. But we lost some of our best teachers because of 
those cuts.
    This year, Governor Davis signed into law the small school 
funding bill, otherwise known as AB-1, which going from memory 
I think gave back $600,000 to Plumas County schools, but only 
for the next three years. With the signing of that bill, we 
settle on the note, and I quote, ``I urge Plumas unified school 
district to develop alternative sources of funding to replace 
those lost from the Federal forest reserve funds.''
    Plumas County's Road Department by next year will be 
looking at layoffs and the inability to keep its infrastructure 
repaired or roads plowed to meet business and emergency needs. 
The potential socioeconomic benefits to Plumas County roads and 
schools with a fully funded and implemented QLG pilot project 
is $9,660,000 in annual forest reserve revenues and in economic 
activities worth an annual estimate of $122,820,000.
    The estimated totals for all eight counties are included 
for the record.
    Last week we experienced lightning-caused wildfires whose 
potential impacts would have been reduced by implementation of 
the QLG management proposal. The EIS has five alternatives. 
Only Alternative 2 initiates action on fire and fuels according 
to a long-term strategy that could be implemented at sufficient 
budget, scale, and pace to effectively reduce the occurrence of 
large scale, high intensity wildfires.
    Large scale, catastrophic wildfires have effects beyond 
their environmental impacts to national forest system lands. 
Local residents, private property owners, and local taxpayers 
bear the brunt of losses and damages, because wildfires also 
impose huge burdens on county highway departments and local 
public service districts to repair and/or replace roads, 
bridges, parks, and watersheds that degrade in the years 
following large fires.
    There are very real and potentially significant linkages 
between healthy fire safe forests and private property values, 
public safety, and public infrastructure costs. We recognize 
that our community vitality is dependent upon the entire 
infrastructure--schools, law enforcement, health, business, 
recreation, churches, and more. That is why we are insistent 
that our forests are managed properly.
    We are pleased that Congress passed the Herger-Feinstein 
Quincy Library Group bill and that the Forest Service had 
adopted Alternative 2. Now we look forward to efficient and 
expedient implementation of the plan. Plumas County can be 
counted upon to be a cooperative partner.
    And if I could, at this time I would like to personally 
thank Congressman Herger and Senator Feinstein for always being 
there for rural California. We greatly appreciate it.
    Thank you.
    [The prepared statement of Ms. Roudebush follows:]

Statement of Fran Roudebush, Chair, Plumas County Board of Supervisors, 
                          Redding, California

    Chairman Chenoweth and Members of the Committee:
    Thank you for being here and for allowing me to participate 
in this panel. I am Fran Roudebush, Chair of the Plumas County 
Board of Supervisors. I am also representing the Regional 
Council of Rural Counties, which consists of 27 member counties 
in California. I also represent the Environmental Services 
Joint Powers Authority of RCRC.
    Eleven counties have submitted letters or resolutions of 
support for the QLG plan and Alternative 2. Six of those 
counties are Yuba, Butte, Glenn, Modoc, Trinity and Siskiyou 
Counties.
    The five other counties Plumas, Tehama, Lassen, Shasta and 
Sierra Counties Boards have worked cooperatively and jointly 
hired a county forester to ensure that the Congressional vote 
of 429 to 1 in favor of the Herger-Feinstein Quincy Library 
Group Forest Recovery Act Bill is fully implemented. These 
counties represent 92 percent of the acres in the QLG plan.
    We have letters of support from the Northern California 
Supervisors Association and the California State Association of 
Counties. I have enclosed several of these letters/resolutions 
to introduce into the record.
    We believe that the end result of full funding and 
implementation of the QLG Pilot Project will be protection and 
enhancement of wildlife habitat, our watersheds and all other 
national forest resources. This is important to our rural 
counties and those who depend upon us for tourism, clean water, 
and business vitality. A viable business community is essential 
to the over-all well being of our schools, families, and future 
growth potential. This is what the QLG plan offers to many if 
not all of the communities within the QLG land base.
    Over the last eight years our schools and roads have 
suffered greatly due to the decrease in timber receipts. In 
Plumas County alone we have gone from an annual high of almost 
$9,000,000 dollars to a low of $1,500,000 dollars. I have 
included information for the record from the 92-93 school year 
showing some of the cuts the district had to make due to lack 
of timber receipts. During the 93-94 school year the district 
had to cut 33 percent of its staff, 30 teachers and 10 
classified employees. Since then several teachers have been 
replaced and 3 classified employees have been replaced due to 
changes in California funding for smaller class sizes, but we 
lost some of our best teachers because of those cuts. This year 
Governor Davis signed into law the Small School Funding Bill 
which backfills for the next three years some of the dollars 
lost due to timber receipts. I have also included a copy of the 
note Governor Davis sent with that signing and I quote, I urge 
Plumas Unified School District to develop alternative sources 
of funding to replace those lost from the Federal Forest 
Reserve Funds.''
    Plumas County's road department by next year will be 
looking at layoffs and the inability to keep its infrastructure 
repaired or roads plowed to meet business and emergency needs.
    The ``potential'' social/economic benefits to Plumas County 
roads and schools with a fully funded and implemented QLG Pilot 
Project is $9,660,000 dollars in annual forest reserve revenues 
and economic activities worth an annual estimate of 
$122,820,000 dollars. The estimated totals for all eight 
counties are included for the record.
    Last week we experienced lightning caused wildfires, whose 
potential impacts would have been reduced by implementation of 
the QLG management proposal. Of the EIS's five alternatives, 
only Alternative 2 initiates action on fire and fuels according 
to a long-term strategy that could be implemented at sufficient 
budget, scale, and pace to effectively reduce the occurrence of 
large-scale, high-intensity wildfires. Large-scale, 
catastrophic wildfires have effects beyond their environmental 
impacts to National Forest System lands. Local residents, 
private property owners, and local taxpayers bear the brunt of 
losses and damages, because wildfires also impose huge burdens 
on county highway departments and local public service 
districts to repair and/or replace roads, bridges, parks, and 
watersheds that degrade in the years following large fires. 
There are very real and potentially significant linkages 
between healthy, fire-safe forests and private property values, 
public safety, and public infrastructure costs.
    We recognize that our community vitality is dependent upon 
the entire infrastructure--schools, law enforcement, health, 
business, recreation, churches and more. That is why we are 
insistent that our forests are managed properly.
    We are pleased that Congress passed the Herger-Feinstein 
Quincy Library Group Bill, that the Forest Service has adopted 
Alternative #2. Now we look forward to efficient and expedient 
implementation of the plans. Plumas County can be counted upon 
to be a cooperative partner.
    Thank you.

                        RESOLUTION NO. 99--6271

RESOLUTION OF THE PLUMAS COUNTY BOARD OF SUPERVISORS
For The Herger-Feinstein Quincy Library Group Forest Recovery 
Act
    Draft Environmental Impact Statement
    WHEREAS, on October 21, 1998, the President of the United 
States signed into law, The Herger-Feinstein Quincy Library 
Group Forest Recovery Act which implements a five (5) year 
Pilot Project on the Lassen National Forest, Plumas National 
Forest and the Sierraville Ranger District of the Tahoe 
National Forest that are located in portions of Butte, Lassen, 
Nevada, Plumas, Sierra, Shasta, Teharna and Yuba Counties, and
    WHEREAS, the Forest Service shall complete an Environmental 
Impact Statement and adopt a Record Of Decision within three 
hundred (300) days of the Presidents signing the Act into law, 
and
    WHEREAS, the Resource Management Activities to be conducted 
on an annual acreage basis under the ACT are:
        <bullet> Construction of a strategic system of Defensible Fuel 
        Profile Zones (DFPZ's), on not less than 40,000 acres, but not 
        more than 60,000 acres per year.
        <bullet> Utilization of the uneven-aged forest management 
        prescription of group selection (and individual tree selection) 
        to achieve a desired future forest condition of all-aged, 
        multistory, fire resilient forests on an average acreage of .57 
        percent of the pilot project area (approximately 9,300 acres 
        per year).
        <bullet> Total acreage on which resource management activities 
        are implemented shall not exceed 70,000 acres per year.
        <bullet> A program of riparian management, including wide 
        protection zones and riparian restoration projects, and
    WHEREAS, all the resource management activities shall be 
implemented to the extent consistent with Federal Laws, and
    WHEREAS, on June 11, 1999, the United States Forest Service 
released the Draft Environmental Impact Statement for the Herger-
Feinstein Quincy Library Group Forest Recovery Act for a forty five 
(45) day public review and comment period, and
    WHEREAS, the United States Forest Service has analyzed five (5) 
alternatives in the Draft Environmental Impact Statement and has 
identified Alternatives 2 and 4 as the preferred alternatives to 
implement the pilot project:
    NOW, THEREFORE, BE IT RESOLVED that the Plumas Supervisors request 
that the United States Forest Service: 

[GRAPHIC] [TIFF OMITTED] T2242.008

[GRAPHIC] [TIFF OMITTED] T2242.009

    Mrs. Chenoweth. Thank you, Ms. Roudebush. And I did make a mistake.
    Ms. Roudebush. That is okay.
    Mrs. Chenoweth. I want to make sure that the record reflects the 
fact that you are the Plumas County Supervisor.
    Ms. Roudebush. Yes.
    Mrs. Chenoweth. The Chairman should always wear her glasses.
    Ms. Roudebush. Do as I do with larger print.
    Mrs. Chenoweth. Thank you very much for your fine testimony.
    Now I call upon Mr. Frank Stewart for his testimony.

   STATEMENT OF FRANK STEWART, COUNTIES QLG FORESTER, CHICO, 
                           CALIFORNIA

    Mr. Frank Stewart. Thank you, Madam Chairman. If I might, 
if I could have this lower poster placard put up.
    Madam Chairman, I appreciate the opportunity to speak to 
the Committee and to my Congressman Herger today. And if I 
might, I would like to--I have written testimony, but I had my 
35th wedding anniversary yesterday. I have three members in my 
family, a wife and two kids, that are teachers in rural 
America.
    And you opened up with what the QLG process is all about. 
It is about people. It is about people's right in rural America 
to live and raise their kids the way they want to. This report 
that you did--and I commend it to everyone--it was a wonderful 
report, because it informs the public as well as Congress of 
the magnitude of the problem that we face in public lands in 11 
western states.
    The report also talks about a window of opportunity, but it 
puts it on a timeframe of at the end of 25 years. I personally 
agree with that. I think that it is probably shorter than that. 
But I think what you have through this report is a window--
through the window of opportunity is the great opportunity of 
implementation, to solve the problem that wasn't defined and 
how to do it in this report.
    One of the problems they found in the report with 
defensible fuel profile zones, I might add, is they looked at 
it as defensive last resort mechanism. Our strategy for the 
Quincy Library Group process says, first, let us save the 
resource. That becomes step 1 in a five-year period, to lay 
these fuel breaks out across the landscape. Then, we can go 
ahead and apply management to the rest.
    So there is a real problem with this report in that it uses 
DFPZs as nothing more than a last resort/failure effort. We 
think it is a key to success, and that is why I think the 
monitoring and the implementation is very important.
    I am an industrial forester for 30 years in Northern 
California. I have had the opportunity--I have been a member 
of--one of the founding members and involved with the Steering 
Committee with the Quincy Library Group. I was formerly with 
Collins Pine Company. About a year and a half ago, I left 
Collins Pine.
    I had the opportunity to--I have such faith in what this 
opportunity has is to approach the counties involved with the 
Quincy Library Group to represent their interest, the county's 
interest, and there are eight of them as we look at the second 
placard up here, if we could move that one, please.
    There are eight counties impacted by this, and one of the 
problems I have always felt in the past, in 30 years of 
experience, is the counties are dominated by such a large 
percent of their land base by Federal lands really don't have 
the opportunity to have adequate representation in some of the 
decision making processes and getting things done on the 
landscape level.
    And I think the Quincy Library Group process does that, and 
I commend the counties that have employed my service for that 
for five years. And Supervisor Roudebush has been a leader with 
Plumas County to do that.
    The two other things I would really like to talk about that 
I think are important in implementing this is Mr. Stewart--and 
by the way, you will notice that we might have common names but 
different gene pools. I don't like age management. He obviously 
doesn't have a problem with it.
    [Laughter.]
    Though it is interesting that two Stewarts would find their 
way into natural resources, because it is important. And that 
is what my wife, my son, and his daughter do. They teach the 
real natural resource of this nation and that's our youth. And 
that is what is important about making this thing work.
    We have struggled for six years to get this thing in place. 
Through the leadership of Congressman Herger and yourself and 
Senator Feinstein, we have been able to get this thing out 
there. Now we have to make it work. The strategies, like I say, 
are short term--is to get the--protect the land base, break up 
the fuel maps.
    Now, that is a map, and it shows you the complexity. That 
is Alternative 2, the QLG alternative. Now, that covers eight 
counties. It is about 120 air miles long and about 110 air 
miles wide. The thing that I think is so wonderful about the 
opportunity--also, I'm glad to see the State of California 
here--is it allows us to think outside of the box for once 
because we are moving in a positive direction.
    These same forests health fuel reduction problems do not 
exist on public lands. We have them on private lands also, 
industrial and non-industrial. And so when you look at that 
geographic area that is encompassed in the eight counties and 
the two and a third national forests, I would let you know 
there is two and a half million acres of private forest land 
and that same sphere of influence.
    It so happens in our area 50 percent of that land is 
industrial timber lands, and well managed fuel control levels 
are held down and well managed land. The other 50 percent are 
owned by thousands of individuals, non-industrial private 
lands.
    So there is a wonderful opportunity, as the Forest Service 
works on laying out the fuel DFPZ systems across the Federal 
land, to coordinate efforts with the California Department of 
Forestry, to coordinate efforts with--in the eight counties, we 
have six county fire safe councils, which bring people together 
to help solve fuel reduction problems and fire protection. That 
map--those are the red dots on the map.
    The blue dots are watershed groups, citizen watershed 
groups, and natural resource council--resource conservation 
districts--excuse me--that have concerns about watershed issues 
and drainages. The yellow on there, the large yellow dots are 
stand-alone powerplants. They are facilities that can utilize 
the biomass material that comes off of the forest thinnings.
    So I think one of the big things here, that by implementing 
this--and I think the Forest Service stepping through the 
window and grabbing this opportunity with the zeal and the 
zest, the 429 to 1 vote said, ``Go do it,'' could be one of the 
solutions across the west for the problems. A big key to this 
is the pace and scale.
    The bill sets 40- to 60,000 acres a year. The concern I 
have is the draft--I haven't received my final yet because of 
the lateness in getting the decision made. Everything I worked 
through on the draft talked about that their pace is only about 
73 percent of what the law allows. My wife is a teacher; 73 
percent is a C. This is not the way you advance a program that 
got 429 to 1.
    We move this program through at the maximum opportunity 
that the law allows, protecting the environment, but at the 
same time, because everything is based on an acres treated 
basis--this is the new paradigm that we have established in 
this law. We are talking about, instead of the acres treated, 
therefore, if you treat the acres appropriately, and at the 
amount allowed under the law, then, therefore, we get the great 
socioeconomic benefits that come out in addition to those 
environmental.
    I would encourage you very strongly to help support the 
full maximum funding for the full maximum acreage allowed, 
because the cost-benefit ratio on this project is for every 
dollar we as taxpayers spend on this project, the government 
gets back $1.38. Now, that return warrants some evaluation and 
support because this report talks about the government asking 
for $12 million to go out there and try and burn their way back 
to a forest healthy condition. And I don't think that is going 
to work.
    Had you been here on July 4th, you would have saw one of 
the tragedies of fire being the main silvicultural tool for 
reducing fuels. Up in the community of Lewiston in Trinity 
county, we tried to burn some out--one of the government 
agencies; I believe it was BLM--the fire got away, 2,000 acres 
burned, and we burned out 24 homes.
    Had you been here just a week ago when all of these fires 
started, you would have saw another biological and physical 
concern that we have was the smoke problem that we had in 
addition to all of the devastation that went on. So I think 
that QLG is an opportunity to treat fuels, put a dollar back 
into the treasury, and to have a good environment for all of 
us.
    Now, personally for you I think, Mrs. Chairman, that little 
white dot up there in the State of Idaho is a resolution from 
the board of Boise County. And I wish you would--and I 
understand that is your district. And so you have people from 
your state and across the west looking into the window to see 
what they can get from the QLG to see if there might be some 
help in their area with the forest also.
    Thank you very much.
    [The prepared statement of Mr. Frank Stewart follows:]
    Mrs. Chenoweth. Thank you, Mr. Stewart. And for the record, 
it is not ``Mrs.`` yet.
    Mr. Frank Stewart. Okay.
    [Laughter.]
    Mrs. Chenoweth. The Chair recognizes Mr. Dick O'Sullivan 
from the California Cattlemen's Association Public Lands 
Committee.
    Mr. O'Sullivan?

     STATEMENT OF DICK O'SULLIVAN, CALIFORNIA CATTLEMEN'S 
               ASSOCIATION PUBLIC LANDS COMMITTEE

    Mr. O'Sullivan. Thank you, Madam Chairman. I want to thank 
you for holding this hearing in Redding, and I want to thank 
you for inviting us, our association, to make comments.
    My name is Dick O'Sullivan. I am a grazing permittee on the 
Lassen National Forest, and I am also, as you have stated, the 
current co-chairman of the California Cattlemen's Association 
Public Lands Committee.
    Although our association has serious concerns regarding the 
implementation of the Quincy Library Group Act, we strongly 
support local planning based upon sound objective science. And 
I want to make it clear that we most certainly support cleaning 
up the forests and reducing the fuel loads. We participate in 
many cooperative forms and have found local decision making to 
be a critical component to successful resource management.
    The livestock industry, however, was not part of this 
original consensus process that led to development of the 
Herger-Feinstein Forest Recovery Act. It was not until a bill 
had been introduced and was moving through Congress that we 
realized the bill not only did address grazing, but also that 
grazing language could introduce exceptionally restrictive 
management standards which could significantly decrease the 
economic viability of ranching for affected operations.
    At that point, our representatives contacted Senator 
Feinstein and Congressman Herger, both of whom assured us that 
it was neither their intention, nor that of the original Quincy 
Library Group plan, to negatively impact grazing. Based upon 
these discussions, we contacted Senators Feinstein and Craig to 
clarify congressional intent.
    Senator Feinstein, in a colloquy with Senator Craig, when 
he asked her on the floor of the U.S. Senate, ``How will the 
SAT guidelines affect livestock grazing?'' she commented, 
``Neither the authors of the bill, nor the QLG, ever intended 
to negatively impact grazing generally.'' Also, and I quote her 
comments, ``the only location where these guidelines would 
apply to grazing is where cattle are actually in the work site 
at the same time a QLG activity is taking place.''
    The SAT guidelines affecting grazing will apply only to the 
specific work area location and only at the specific time that 
projects are conducted within the pilot project area. We wish 
to thank Congressman Herger, Congressman--or Senator Feinstein, 
and Senator Craig for this colloquy that is in the document.
    But to ensure that you are going to protect grazing, we 
need to have this specific language in that final document, so 
it is very clear to everyone what we are talking about--the SAT 
guidelines affecting grazing.
    Unfortunately, as prescribed in the draft environmental 
impact statement, Alternative 2 could potentially introduce 
management standards stringent enough to remove grazing from 
many of the most viable portions of the grazing allotments.
    Alternative 2 of the draft environmental impact statement 
introduces a management standard referred to as SAT guidelines. 
These guidelines are put in place wherever a resource activity, 
as described in the Act, is implemented. These guidelines call 
for the elimination of grazing, if riparian resource management 
objectives are not being met, regardless of whether resource 
condition is improving towards desired future conditions or 
objectives.
    Alternative 2 is written in the draft EIS, applies the SAT 
guidelines to livestock grazing in areas where resource 
activities, as defined in the Act, are scheduled to be 
conducted. Livestock operators need to understand the 
importance of riparian areas.
    This is our primary source of forests within the mountains 
and meadows in riparian areas. And these forests are in an 
upward trend now from what they historically have been. 
Livestock operators are very aware of the necessity to manage 
their cattle in this forest.
    The solution to this, as far as grazing is concerned, is we 
feel that we should only establish riparian management projects 
or riparian habitat conservation areas where riparian 
management objectives are not being met, and where trend 
monitoring does not indicate an upward trend in condition. We 
need to conduct site-specific NEPA analysis to verify that 
riparian management objectives are not being met, and that 
resource conditions are not already improving.
    This environmental analysis should be site-specific, 
scientifically objective, verifiable, reproducible, and subject 
to peer review. If livestock are indicated to be the cause of 
the degradation, the assessment must analyze the effects of 
current livestock management, which may be dramatically 
different than prior management.
    If the SAT guidelines are to be applied, they should only 
affect livestock grazing when cattle are actually in the work 
area, and at the same time personnel are conducting the work as 
intended by Congress.
    In conclusion, there needs to be specific language in the 
final document to protect grazing. The California Cattlemen's 
Association stands ready, willing, and able to work with the 
U.S. Forest Service to put this language in there. Again, I 
want to thank you for coming, and I want to thank you for 
inviting us to participate.
    [The prepared statement of Mr. O'Sullivan follows:]

 Statement of Hon. Dick O'Sullivan, California Cattlemen's Association

    Chairman Chenoweth and distinguished members of the 
Subcommittee on Forests and Forest Health, I am Dick 0' 
Sullivan, a rancher from Paynes Creek, California currently 
serving as the Co-Chair of the California Cattlemen's 
Association Public Lands Committee. Thank you for the 
opportunity to be with you today to present oral and written 
testimony on the effects of the proposed actions of the United 
States Forest Service (USFS) on the California beef cattle 
industry.
    The California Cattlemen's Association is a trade 
association that was formed in 1917 and represents all segments 
of the beef cattle industry. We have over 3000 members involved 
in seedstock, cow/calf, stocker and feeding operations.
    Although our industry faces challenges everyday from 
climatic and market conditions, we are increasingly impacted by 
local, county, state and Federal regulations that threaten our 
livelihood. Our comments today focus on the environmental 
impact statement for the Quincy Library Group (QLG) management 
plan, an action that threatens the viability of ranching within 
the Lassen, Plumas and Tahoe National Forests and the local 
community.

Background

    Although our association has serious concerns regarding the 
implementation of the Quincy Library Group Act (Act), CCA 
supports local planning based upon sound objective science. CCA 
participates in many cooperative forums and has found local 
decision making to be a critical component to successful 
resource management. The livestock industry, however, was not 
part of the original consensus process that led to the 
development of the Herger-Feinstein Forest Recovery Act. During 
the initial establishment of the Quincy Library Group, 
livestock interests were assured that the members of the QLG 
did not intend to impact grazing. In fact, the livestock 
representative on the group was told he did not need to attend 
the meetings. That being the case, local ranchers focused their 
time on alternative issues and did not attend the meetings 
which led to the development of the Act.
    It was not until a bill had been introduced and was moving 
through Congress that we realized the bill not only did address 
grazing but also that the grazing language could introduce 
exceptionally restrictive management standards which would 
significantly decrease the economic viability of ranching for 
affected operations. At that point our representatives 
contacted Senator Feinstein and Congressman Herger, both of 
whom assured us that it was neither their intention nor that of 
the original Quincy Library Group to negatively impact grazing. 
Based upon these discussions language was added to the Senate 
Record by Senators Feinstein and Craig to clarify congressional 
intent regarding the Act and livestock grazing within the 
affected forests. This language very specifically states, 
``neither the authors of the bill, nor the Quincy Library Group 
ever intended to negatively impact grazing generally'' 
(Congressional Record, S12787). We would like to express our 
gratitude to the Senators for injecting this language into the 
Congressional Record, which limits the expected impacts of the 
Act upon grazing. To ensure the final document adheres to 
congressional intent, this language should be included verbatim 
in the final management plan. Unfortunately, as presented in 
the Draft Environmental Impact Statement (DEIS), Alternative 2 
could potentially introduce management standards stringent 
enough to remove grazing from many of the most valuable 
portions of the grazing allotments. It is our sincere hope that 
these sections of the DEIS have been modified in the FEIS, but 
absent significant modification it is highly probable that 
implementation of the Act will result in the removal of 
livestock forcing permittees to discontinue their ranching 
operations.

SAT Guidelines

    As stated before, since we have not yet received a copy of 
the FEIS and it is not yet available on the Internet, we must 
base our concerns upon the management direction in the DEIS and 
in the Record of Decision (ROD).
    Alternative 2 of the DEIS introduces a management standard 
referred to as the Scientific Analysis Team (SAT) guidelines. 
These guidelines are put in place wherever a resource activity 
as described in the Act is implemented. These guidelines call 
for the elimination of grazing if riparian resource management 
objectives are not being met, regardless of whether resource 
condition is improving toward the objective. Alternative 2, as 
written in the DEIS, applies the SAT guidelines to livestock 
grazing in areas where resource activities as defined in the 
Act are scheduled to be conducted. As these activities include 
the establishment of riparian habitat conservation areas and 
riparian management projects, it is expected that many grazing 
allotments will be affected. In fact, within any single 
allotment there could be numerous sites requiring SAT 
guidelines, which would then destroy the economic viability of 
the allotment.
    When the SAT guidelines are applied to a riparian area 
within an allotment, for example a meadow, they may require 
that cattle be excluded from that portion of the allotment for 
as long as that area is included as a riparian habitat 
conservation area or riparian management project. For most 
permittees, it is not feasible to remove cattle solely from 
riparian areas as the economic viability of these allotments is 
tied to the availability of forage within the meadows. Without 
this meadow feed, it becomes impractical to continue using the 
allotment. Without the allotment, many ranchers will no longer 
have access to summer feed which will cause their entire 
operation to be no longer economically viable thus many may 
have to discontinue operations and sell their home ranch.

The Solution

    Livestock operators keenly understand the importance of 
riparian areas as the economic viability of ranching in 
mountain meadows is directly tied to the environmental health 
of riparian areas. To ensure the continued viability of the 
local livestock industry and to ensure the implementation of 
the Act remains consistent with congressional intent, CCA 
suggests the following be incorporated into the final 
management plan:

        <bullet> Only establish riparian management projects or 
        Riparian Habitat Conservation Areas (RHCA) where riparian 
        management objectives are not being met and where trend 
        monitoring does not indicate an upward trend in condition.
        <bullet> Only establish riparian management projects or 
        Riparian Habitat Conservation Areas (RHCA) where riparian 
        management objectives are not being met and where trend 
        monitoring does not indicate an upward trend in condition.
        <bullet> Conduct site specific National Environmental Policy 
        Act (NEPA) analyses to verify that riparian management 
        objectives are not only not being met but also that resource 
        conditions are not already improving before establishing a 
        riparian management activity or RHCA.
        <bullet> This environmental analysis should be site specific, 
        scientifically objective, verifiable, reproducible and subject 
        to peer review.
        <bullet> If the environmental analysis indicates a degraded 
        resource condition, the assessment should also identify the 
        cause of degradation.
        <bullet> If livestock are indicated to be a cause of 
        degradation this assessment must analyze the effects of current 
        livestock management which may be dramatically different then 
        prior management, i.e. the degradation may be due to historical 
        livestock use as opposed to current management.
        <bullet> If domestic or wild ungulates create ``adverse'' 
        effects to riparian areas or to water bodies, these effects 
        must be clearly defined and substantiated scientifically in the 
        environmental analysis at site specific locations.
        <bullet> If the SAT guidelines are to be applied they should 
        only affect livestock grazing when cattle are actually in the 
        work area and at the same time personnel are conducting the 
        work as intended by Congress.

Conclusion

    I appreciate your allowing me to share our concerns and 
solutions regarding livestock grazing and the implementation of 
the Quincy Library Group. We certainly appreciate your 
attention to the needs of the livestock industry here in 
California and look forward to working closely with the 
Committee to address these issues. If you have any questions 
regardingn comments made in this testimony, please feel free to 
contact Patrick Blacklock our Director of Administration and 
Policy Analysis or myself.
    Again, we thank you for the opportunity to present 
testimony to the Subcommittee on Forests and Forest Health. Our 
association is ready to assist the Committee in anyway 
possible.

    Mrs. Chenoweth. Thank you, Mr. O'Sullivan, for that fine 
testimony.
    The Chair now recognizes Congressman Herger for his 
questions.
    Mr. Herger. Thank you, Madam Chairman.
    I just want to state, Mr. O'Sullivan, that it is certainly 
our intent, and myself as author of this legislation, that we 
not negatively affect a group such as the cattlemen who have 
been wise stewards of the land since the mid 1800s. And 
certainly we will be monitoring this and your involvement, and 
we will be seeking your input throughout this.
    I just wanted to reaffirm that, and I know that Chairman 
Chenoweth had mentioned this in some of her earlier comments, 
so I just wanted to make sure I reemphasized that.
    If I could maybe, Ms. Roudebush, just a couple of questions 
for you, if you could. In your testimony, you stated that it 
will be next year that Plumas County may face personnel 
reductions in the Public Works Department. Could you tell me 
why that has become a critical year?
    Ms. Roudebush. Because over the last five years we have 
basically had to deplete our reserves due to the lack of forest 
receipts that have come in, and because this year's receipts 
are--we are estimating them to be under $750,000, and our Road 
Department budget is something like $6 million.
    Obviously, there is not going to be enough money to go 
around. The only reason we haven't had to make those cuts this 
year is because of some projects we are actually doing for the 
State of California.
    Mr. Herger. What percent of your county is owned and 
controlled by the Federal Government, approximately?
    Ms. Roudebush. Approximately 75 percent.
    Mr. Herger. Three-quarters of your entire county is removed 
from the tax base. And, of course, what this means is 25 
percent of gross receipts would come to--specifically for 
schools and roads. So very, very crucial to your----
    Ms. Roudebush. Absolutely.
    Mr. Herger. [continuing] and other counties throughout our 
timber-producing areas.
    Even if the QLG bill is implemented next year, there will 
still be a delay in county revenue from the timber sale 
receipts. Does the county have a contingency plan for that that 
will assist in minimizing the potential health and safety risk 
which you related in your testimony?
    Ms. Roudebush. Yes. I think you are aware of H.R. 2389, 
which is a bill that is being supported by the counties and the 
school's coalition. It is referred to as a 25 percent safety 
net solution. What they are asking is that a very short-term 25 
percent plan be implemented, and that they take--I think it is 
one of the highest five years--the highest three years out of 
the last five, and 25 percent of that, and give that to the 
counties, but only for a short term.
    We don't want that to turn into an entitlement, nor do we 
want the administration's idea of decoupling to come into this. 
We want this to be a very short-term bill, and hopefully that 
will succeed.
    Mr. Herger. Good. And I am following them, the co-sponsor. 
And, again, we are trying to do for our California--outside the 
northern spotted owl--to try to deal with them in somewhat the 
same way. And I want to thank you for your involvement here.
    In your closing statement, you indicated Plumas County 
wishes to be involved in the program implementation. What type 
of assistance can Plumas County provide?
    Ms. Roudebush. Well, as I mentioned, we are supporting and 
helping to pay for county forester Frank Stewart, and we have 
pledged to continue to do that because we know how important 
the monitoring of the QLG program is over the next five years. 
So ourselves, along with five other counties, are paying for 
him and pledge to continue to do so.
    We have had a wonderful group of volunteers that have 
worked on QLG for the last seven to eight years at a very high 
level of intensity. And I don't think we could continue to ask 
that of them, although I am sure they would willingly do it. We 
think that it is important that we step up to the plate and 
help support that with our dollars as well.
    Mr. Herger. Thank you.
    Ms. Roudebush. You are welcome.
    Mr. Herger. Mr. Frank Stewart, in your view, how should the 
Forest Service best proceed with implementation of the QLG?
    Mr. Frank Stewart. Start tomorrow. I would have to agree, 
Congressman, with George Terhune. I think there are some 
revisions of the map that need to be done, but I think that 
there are some things that can be done this operating season--
what is left--so we do not have this downfall of work.
    I know we have to go through the appeal process, but I 
think we have to move forward with a bill that got a 429 to 1 
vote. I think this is the solution, and I think we need to do 
whatever we can to encourage an attitude within the Forest 
Service that this is a solution. Let us move forward.
    So I think the initial planning can get done. I think 
another big thing we ought to do is make sure to get some 
timber paint, marking paint. I understand we have got some real 
problems getting some paint out to the districts, not just in 
California but across the west. I would hate to think we 
couldn't move forward because we don't have an adequate 
purchasing agent making sure we have paint to be done to get 
the trees marked.
    Mr. Herger. We could have a hearing just on that issue.
    Mr. Frank Stewart. I am sure we can.
    [Laughter.]
    Maybe we need one on it, too.
    Mr. Herger. As county forester, can you offer them any 
assistance government to government?
    Mr. Frank Stewart. First of all, I am not an employee of 
them. I am working as a consultant with the county. The biggest 
opportunity that the forest has is the opportunity to think 
outside the box. Fire does not stop at the property line.
    In my short involvement after leaving Collins and having 
the opportunity to represent the county, and look at it from a 
different perspective, there is a wonderful opportunity to work 
through the County Fire Safe Council, with the Department of 
Forestry.
    Mr. Stewart, some of the stuff that they have in 
Sacramento, some of those computer wonks and the GIS stuff is 
wonderful. We need to bring that resource together with what 
the Forest has, so we get the best things in planning out in 
front of this pilot project, because I really believe in the 30 
years with the Forest Service, dealing with the Forest Service 
in Northern California, this is going to be the only shot we 
get at it. This is the good one.
    Now, we need to make it work, so I think the counties are 
fully behind it. They have been. And I think by working through 
the fire safe councils and bringing that resource in, and then 
through CDF, we get the best planning done.
    The second benefit of that, Congressman, is it allows us to 
look at the job from a financial standpoint. Contractors can't 
spend millions of dollars to buy equipment if they have very 
short, limited operating periods. We need to look at extending 
the periods to meet the environmental concern.
    By looking to extend operations on private land, by helping 
reduce fuel--maybe we can talk about a fuel reduction tax 
credit. Something that addresses the scale of the problem out 
there. This is where I think the opportunities are now going to 
be, looking down the road.
    Mr. Herger. Can you assist them with proposed locations for 
fuel breaks and group selection projects?
    Mr. Frank Stewart. Oh, sure. As other members of the Quincy 
Library Group, you bet. My involvement in representing the 
counties is through a member of the Quincy Library Group. We 
are a collaborative process.
    But you bet. They probably have the best--and I think it 
has to be said here--some of the finest resource managers work 
for the U.S. Forest Service. I have taken some pretty terrible 
hits in the media during this process. I personally--some of 
the finest young men and women work for that agency, and I am 
quite pleased to have the opportunity to work with them.
    I think if we can turn the spark of enthusiasm on with 
them, they have enough professionalism to get the thing done 
out in front. We need to encourage them. I think that is 
Congress' job is to encourage, enforce, make sure this thing 
happens. This oversight hearing is a wonderful first step at 
putting it down.
    I would much rather have you come out and take you up. Now 
that is a defensible fuel profile zone. That is not a clear 
cut. That is a wonderful thin forest. That was one design on 
the Lassen National Forest--sold, harvested, thinned, and it is 
going to serve its purpose. So I think the people inside the 
group right now can do it. I think you have got to give them 
the nudge, but we will help where we can on this side.
    Mr. Herger. Well, the fact that we are having this 
oversight hearing less than a week after the final decision has 
come up I think shows the interest of Congress in seeing that 
this is implemented. And I concur with you, we do have some 
outstanding people, both in the Forest Service and in the 
California Department of Forestry, and others that are here. 
That we just need to implement and give them the green light to 
be able to move ahead with what I think is just an outstanding 
plan.
    You gave some very interesting figures earlier that--
something to the degree, if I recall, one dollar that the 
government puts in, Federal Government, it will bring--will be 
restored $1.38. Economically, what does full implementation of 
QLG plan mean for the counties?
    Mr. Frank Stewart. Well, again, as Mr. Stewart said, I wish 
that they wouldn't have stuck this up front in the EIS. That is 
the beauty of what this EIS proves, the process, the economic 
opportunity of $2.1 billion. The economic opportunity of 
Alternative 2, fully implemented, is $2.1 billion, not just to 
the counties but the state. That is tremendous.
    They are currently under 1--no strategy--move forward with 
1 is about $800 million. So you can see that $1,400,000,000 
increase in 2. And I think it has to be said the other beauty 
of the EIS, Congressman, was that the environmental community 
got to run their own alternative, and that is Alternative 5.
    And Alternative 5, I want to tell you, is a complete 
failure from the county standpoint. It will only have an 
economic opportunity, since we put them on scales of QLG of 
$2.1 billion, their alternative would have $280 million 
throughout its life. And current practice is about $900 
million, so you could say we are talking $700 million 
reduction. That is economic destruction of the county.
    And then because it relies on big land reserves, big wide 
buffers, and fire as the management tool, you would experience 
what we saw at Lewiston in the smoke in the air. That's the 
beauty of 2. So along with the good environmental benefits for 
enhancements, the economics are wonderful.
    The 25 percent forest reserve revenues that would go to the 
eight counties are almost comparable with what historic levels 
have been. So from all angles, as Mr. Terhune said, it is 
really a win-win-win for all of us.
    Mr. Herger. Thank you.
    And then, Mr. Dick O'Sullivan, again as was mentioned, the 
cattlemen, who have been here since the mid 1800s, are a key 
part of this, and we want to make sure that your interests are 
heard. How would you like to be involved in the QLG process as 
individual EAs are composed to implement the process?
    Mr. O'Sullivan. Well, Congressman, I think that in fairness 
here, that in Alternative 2, in these defensible fuel profile 
zones, well they are quarter-mile strips and they are 10 to 12 
miles long. And they will come across the canyons, across 
riparian areas and waterways, and wherever they touch a 
waterway, wherever they touch a riparian area, that will be 
called a riparian protection zone or a riparian habitat 
conservation area. That makes it automatically subject to SAT 
bylaws.
    Right now, we are under a lot of pressure to stay on 
Federal ground, as you can understand. To be able to stay on 
Federal ground in the future, a livestock permittee is going to 
have to manage like he has never managed before. We are going 
to have a lot of people leaving because of that.
    The management required right now is extensive. If these 
riparian habitat conservation areas are created all over the 
permit, we can't move cattle if we are restricted to these 
areas. I can show you on a map, on particular permits I am 
familiar with, where you simply wouldn't be able to cross those 
areas if they enforced the SAT guidelines on us.
    Now, how could we get around that? We need to be on the 
ground. If we have an area, a riparian area, that requires 
riparian restoration, we want to restore that. We don't want to 
see that area degraded. We are moving cattle all the time to 
prevent that. We want to be on the ground, but we want the 
Forest Service to be objective when they are doing their 
documentation.
    As the Chairwoman brought up a moment ago, the Forest is 
not--their science is based upon subjectivity and opinion in a 
lot of cases, and that drives the process. We want them to be 
scientifically objective when they deal with these issues. That 
is how we want to get involved.
    Mr. Herger. Good. Well, I want to work with you and all of 
us to see that that happens.
    Thank you very much, Madam Chair.
    Mrs. Chenoweth. Thank you, Mr. Herger.
    I wanted to ask Fran Roudebush--there were some opinions 
expressed by some outside businesspeople with regards to the 
fact that they disapprove of the QLG. I think it was expressed 
in The Wall Street Journal. I would like for you to comment on 
that. I was mystified by that.
    Ms. Roudebush. Well, you know, the interesting thing 
there--not to myself, but to one of my fellow supervisors who 
had an apology from Nevada County's board in their vote, and my 
suggestion was that he take back to them that they could 
apologize--the best way--by reversing that vote.
    I think the businesses fail to understand that tourism 
obviously does come up to look at trees, but those same 
tourists come up to buy the products that are supported by the 
wood industry itself. And so I don't understand it either, 
other than maybe they just didn't fully understand what the QLG 
represents and what the program involves, and they simply think 
of clear cutting as what you do in the woods. And that is 
obviously not what we are recommending.
    Mrs. Chenoweth. That is obvious. It was surprising to me, 
when I first got back to Congress several years ago, that even 
some of my colleagues who represent districts in the east 
really thought that we didn't have one blade of grass standing, 
every frog pond had been drained, and every tree cut.
    Ms. Roudebush. Right.
    Mrs. Chenoweth. And it has been a pleasure to meet and be 
able to join Representative Herger in actually getting eastern 
members up in an airplane and out in the woods on the ground to 
see the difference in the management techniques, and the fact 
that you could be in an airplane in Idaho or California and 
from horizon to horizon you still see trees, and--though the 
misperception has not served us well in terms of actual votes 
generated in the Congress.
    So the work that Congressman Herger has done, I have 
followed in his footsteps. We had a leadership tour a couple of 
years ago where we brought the entire leadership team out to 
the west, and it was a born again experience for some of them.
    And so we need to continue that, and certainly QLG has not 
only served to help move a program forward in a window of 
opportunity in this community, but it has served as a blueprint 
for other counties such as Boise County and other areas. So, 
again, my hat is off to you.
    Ms. Roudebush. Well, thank you. And, again, I would like to 
thank you on behalf of the rural counties for your support of 
Congressman Herger and the QLG bill. Without you, this wouldn't 
have been successful either. Thank you.
    Mrs. Chenoweth. Well, it certainly is a very worthy cause.
    I want to ask Mr. O'Sullivan--I have been watching this 
process from the cattlemen's point of view, too. And I want to 
make certain that no existing rights are abridged, and the 
original legislation is fashioned so that it didn't allow for 
existing rights to be abridged. I do not want to see guidelines 
implemented that would abridge or take existing rights, because 
it can be very, very costly for the American public, not only 
on--if the guidelines actually abridge existing rights, proven 
existing rights.
    Mr. O'Sullivan. One of the rights that this doesn't 
address, congresswoman, is adjudicated water rights.
    Mrs. Chenoweth. That is right.
    Mr. O'Sullivan. All through the forest.
    Mrs. Chenoweth. That is right.
    Mr. O'Sullivan. How are they going to deal with that if 
they have this SAT restrictions on resource rights?
    Mrs. Chenoweth. And we do need to make sure those rights 
are protected. In the original legislation, they were not 
abridged, and so I will be watching very carefully and working 
with Congressman Herger and the Senators also to make sure your 
existing rights are not abridged.
    Recent case law has come down that not only says you have a 
use right to the water, but your ditch rights and rights and of 
way, which means your ability to move your cattle from one 
allotment to another, and then also the rights to the foliage 
on your allotment.
    Should the Federal Government decide, through guidelines 
outside the purview of the Congress, to abridge any of those 
existing rights, they are, in essence, involved in a taking, 
which they would have to pay for future use of your rights, 
your property use rights. And so we want to be very, very 
careful to protect the taxpayers, to protect an existing 
industry who has existing rights, and a history and culture 
that is as important to the west as timber, mining, and 
recreational and aesthetic use of our resources.
    These uses do not need to be mutually exclusive. And as 
Teddy Roosevelt envisioned, when these use rights are used in a 
compatible manner, it really does and can establish forest 
health and an ongoing sustained forest, as well as ongoing and 
sustainable industries.
    I share with you that concern. I share with all of you that 
concern.
    And I wanted to ask you about Alternative 2 that states in 
the guidelines that ``Guidelines will apply to grazing only at 
the location where resource management activities are ongoing 
for fuel break construction, only at the time they are going 
on.'' Now, is that comfortable language for you?
    Mr. O'Sullivan. That helps somewhat. It has been our 
experience that there is a difference between the way it is 
spelled out and the way it is actually implemented on the 
ground. What our concern is that they will have riparian areas 
all through the forest, and we won't be able to move these 
cattle, to manage these cattle, out on that range because they 
will have some sort of a resource activity out there.
    They will create something that, whether it is genuine or 
not, we could be at risk. We are not concerned with the 
genuine. We are concerned with the non-genuine, the subjective 
opinion that a riparian area doesn't meet riparian objectives. 
And, therefore, we are going to not be able to move the cattle 
through for that area.
    That is close. That is helpful. But we would like to see 
stronger language.
    Mrs. Chenoweth. And traditional established rights of way 
need to be maintained. Another concern that I want to bring up 
for the record is that resource management ongoing that are 
ongoing because of fuel break construction could be studies for 
fuel break construction.
    So I want to make sure that the agencies do not say because 
we are studying in allotment number 1, allotment number 2, and 
allotment number 3--and those are all three of your allotments, 
Mr. O'Sullivan--you are not able to allow any of your cows to 
be involved in grazing in any of your allotments.
    Now, that is a worst case scenario. But I think it is 
incumbent upon us to be able to see down the pike that this 
could happen, and I do not want that to happen. Period. And I 
know that we need to have you involved in the QLG process and 
involved in the environmental assessment process.
    I don't know whether it will be you yourself or who it 
might be, but it is important to have cattlemen's involvements 
with a clear understanding that you come in with a unique set 
of circumstances, different from other users. You come in with 
established rights. So I will be watching this very carefully. 
And I, through my comments, want to also ask other members to 
watch this very carefully.
    Mr. Stewart, I was not able to review your testimony before 
you gave your oral testimony. I will be giving you written 
questions. And if you don't mind responding within 10 working 
days of receipt to our questions, I would appreciate it very 
much.
    Mr. Herger, do you have any other comments or questions?
    Mr. Herger. Well, only I want to thank all of you here. You 
are--the ones sitting here representing our counties, our wood 
products, and our cattlemen, are certainly some--and the State 
of California has done such a great job of helping fight fires 
over the years and working with and protecting our homes and 
structures and others.
    I want to thank you for your involvement. Again, this is a 
five-year pilot plan that we are going to be working on. And I 
can assure you I will be monitoring this if not on a daily 
basis, very, very regularly. My door is open to each of you. We 
want to make sure that this works.
    And I know there has been a lot of ongoing concern with the 
cattlemen, and I want you to know, Dick, that I will continue 
working with you, and each of you. As we see challenges arise, 
I want to be there to work with you to work those challenges 
out.
    So, anyway, I thank each of you for appearing before us 
today and your overwhelmingly strong, positive involvement in 
this process. Thank you.
    Mrs. Chenoweth. I also have about--both Mr. Herger and I 
have about 10 other questions for each of you that we would 
like to ask. Time does not permit us to do that. And so as with 
Mr. Stewart, we will be sending you written questions. If you 
wouldn't mind responding within 10 working days, I appreciate 
that.
    Thank you so much for your very valuable testimony.
    While this panel is leaving, the Chair will call Mr. Brad 
Powell, Acting Regional Forester, Region 5, U.S. Forest 
Service, Vallejo, California, to the witness table. He will be 
accompanied by Mr. Mark Madrid, Forest Supervisor of the Plumas 
National Forest, and Mr. Mike Spear, Manager, California/Nevada 
Operations Office, U.S. Fish and Wildlife Service, Sacramento, 
California.
    Gentlemen, as you have heard me explain before, we ask all 
members to rise and take the oath.
    [Witnesses sworn.]
    Mr. Powell, we recognize you for your testimony.

 STATEMENT OF BRAD POWELL, ACTING REGIONAL FORESTER, REGION 5, 
            U.S. FOREST SERVICE, VALLEJO, CALIFORNIA

    Mr. Powell. Thank you. Madam Chairman and members of the 
Subcommittee, thank you for the opportunity to discuss the 
Herger-Feinstein Quincy Library Group Forest Recovery Act. I am 
accompanied today by Mark Madrid, Forest Supervisor of the 
Plumas, here on my end, on my left, and Mike Spear, Manager of 
the California/Nevada Operations Office of the U.S. Fish and 
Wildlife Service.
    Since the enactment of the Act, we have been committed to 
the successful implementation of its provisions. Many Forest 
Service employees have worked diligently with the Quincy 
Library Group, the community, Congress, and others to 
accomplish this task. With the signing of the record of 
decision for the final environmental impact statement on August 
20, 1999, we are now ready to move forward with the 
implementation of the pilot project.
    The Act requires the Secretary of Agriculture to conduct a 
pilot project for a period of up to five years. To accomplish 
the purpose of the Act, resource management activities are 
required that include fuel break construction, consisting of 
strategic system--a strategic system of defensible fuel profile 
zones, group selection and individual tree selection harvest, 
and a program of riparian management and riparian restoration 
projects. All of these activities will be conducted consistent 
with environmental laws.
    The pilot project will test the effectiveness of resource 
management activities designed to meet ecological, economic, 
and fuel reduction objectives on national forest system lands 
in the Plumas, Lassen, and Tahoe National Forests. The pilot 
project area includes 2.4 million acres. Approximately 900,000 
acres are off base, deferred, or otherwise unavailable as 
defined by the Act, leaving 1.5 million acres for 
implementation of the pilot project activities.
    The final environmental impact statement describes a 
proposed action and four alternatives. More than 10,000 
comments were received on the draft environmental impact 
statement. The FEIS discloses the expected environmental 
consequences of implementing the pilot project. The FEIS also 
addressed the comments received and analyzed as a part of the 
public involvement process.
    The record of decision amends the forest plans for the 
Plumas, Lassen, and Tahoe National Forests, and identifies the 
alternative selected by the Forest Service and the rationale 
for its selection. Alternative 2, as modified, was selected. 
The decision will implement a strategy to reduce wildfire, 
while protecting California spotted owls and other wildlife 
associated with old growth forests.
    Alternative 2 was modified so that no timber harvesting 
will be permitted in suitable owl habitat until the Forest 
Service establishes a long-term California spotted owl strategy 
for the Sierra Nevada that allows such an activity. This 
modification essentially defers treatment on an additional 
420,000 acres.
    The California spotted owl habitat protection strategy is 
not projected to last for the duration of the pilot project. 
When a new California spotted owl habitat management strategy 
is adopted as a result of the Sierra Nevada Framework Project, 
it will take the place of the approach described above and 
apply for the remainder of the pilot project period.
    The Forest Service will begin the environmental analysis 
and documentation process required by NEPA for projects that 
implement this decision. We will prioritize the implementation 
of those projects that are currently being planned and that are 
consistent with the decision. We will focus initially on 
watersheds with a high resource priority and known fire risk 
problems.
    I would like to discuss for a moment our plans for some of 
the specific resource management activities required for 
implementing the decision.
    Alternative 2 includes 40- to 60,000 acres of fuel 
reduction each year for five years, through a strategic system 
of fuel profile zones. A fuel profile zone includes shaded fuel 
breaks, thinnings, and individual tree selection cutting. These 
zones will be designed to avoid the approximately 62,000 acres 
of suitable owl habitat that are estimated to exist within the 
fuel break areas, until new owl guidelines are developed.
    Alternative 2 also includes 8,700 acres of small group 
selection treatments per year, resulting in the removal of 
trees and small openings in the forest of one and a half to two 
acres in size. These will be scattered across the landscape and 
are intended to provide multi-storied forest stands of 
different age classes which would mimic stand structures 
developed under natural fire regimes. These may, where 
appropriate, be used in conjunction with defensible fuels 
profile zones.
    Riparian/aquatic ecosystem protection will be enhanced 
through a riparian management project. Examples of proposed 
projects include wide protection zones and restoration projects 
such as meadow restoration and vegetative plantings. These 
projects will be consistent with the Scientific Advisory Team 
guidelines as directed in the Act.
    A Scientific Review Team appointed by the Secretary of 
Agriculture will assess the success of implementing actions in 
meeting the objectives outlined in the Act. The monitoring 
strategy will provide information to managers to be used in 
applying the principles of adaptive management, and it will 
assist the agency and the public in gauging the success of 
resource management activities in achieving resource 
objectives.
    In summary, we are committed to implementing the decisions 
made for the Herger-Feinstein Quincy Library Group Forest 
Recovery Act, while ensuring protection of California-spotted 
owl habitat and habitat for other old growth dependent species. 
The selection of Alternative 2, as modified, will implement the 
law while complying with all other environmental laws.
    We are also committed to monitoring the project to ensure 
that restoration activities are in compliance with 
environmental protections, and to assess the overall 
effectiveness of the pilot project.
    This concludes my written statement. I would be happy to 
answer any questions that you or members of your subcommittee 
may have.
    [The prepared statement of Mr. Powell follows:]
    Mrs. Chenoweth. Thank you, Mr. Powell.
    And the Chair recognizes Mr. Herger for his questions.
    Mr. Herger. Would you prefer to have Mr.----
    Mrs. Chenoweth. Of course, yes. Yes. I didn't realize that.
    Mr. Spear, please proceed.

STATEMENT OF MIKE SPEAR, MANAGER, CALIFORNIA/NEVADA OPERATIONS 
 OFFICE, U.S. FISH AND WILDLIFE SERVICE, SACRAMENTO, CALIFORNIA

    Mr. Spear. Thank you, Madam Chairman, Mr. Herger. Thank you 
for the opportunity to present testimony on the Fish and 
Wildlife Service's involvement with the Forest Service 
environmental impact statement, as it relates to the QLG Forest 
Recovery Act.
    After the listing of the northern subspecies of the spotted 
owl in the Pacific Northwest as threatened, Region 5 of the 
Forest Service in San Francisco and the Fish and Wildlife 
Service began informal discussions regarding the status of the 
California subspecies of the spotted owl and the need to 
develop a comprehensive range-wide management strategy to 
provide for the owl's long-term viability and to preclude the 
need for listing.
    In 1992, the Forest Service published a technical 
assessment of the owl's status and provided an interim three- 
to five-year management strategy for the species. In 1998, the 
Forest Service engaged the Fish and Wildlife Service in a 
cooperative and collaborative process known as the Sierra 
Nevada Framework for Conservation and Collaboration.
    The framework's purpose is to amend existing plans for the 
11 national forests in the Sierra Nevada to provide consistent 
regional land management planning direction incorporating the 
most recent scientific information. The framework will develop 
conservation strategies for a number of non-listed species to 
provide long-term viability of species of concern now at risk 
in the Sierra Nevada.
    When completed, any conservation strategy developed in the 
framework process will apply to all national forest lands in 
the Sierra Nevada, including those in the area covered under 
the QLG Forest Recovery Act.
    Concurrent with the framework planning process, in March 
1999, we signed an interagency agreement with the Forest 
Service detailing our participating in the QLG effort. Our 
involvement was to ensure that the implementation of the QLG 
Forest Recovery Act would promote the survival and recovery of 
federally-listed threatened and endangered species and the 
viability of non-listed, at-risk species, thus precluding the 
need for their listing.
    While working on the DEIS, Fish and Wildlife Service 
identified several concerns regarding the potential effects of 
the project on federally-listed species and on the long-term 
viability of old growth forest-associated species of concern, 
such as the California spotted owl and the Pacific fisher.
    These concerns focused on potentially significant 
reductions in suitable nesting, denning, foraging, and 
dispersal habitat, habitat fragmentation, changes in prey 
population, and introduction of non-native plant and animal 
species.
    In meetings with the Forest Service staff, the Service 
identified concerns about the DEIS and potential adverse 
effects on the long-term viability of the owl and other 
species. These discussions continued after the DEIS was issued, 
and Fish and Wildlife Service provided detailed comments and 
recommendations to minimize these effects.
    Prior to issuance of the record of decision and final EIS, 
Fish and Wildlife Service was able to concur that the FEIS, as 
modified, was not likely to adversely affect listed species. 
The Fish and Wildlife Service and the Forest Service have also 
agreed to work cooperatively in an early consultation and 
coordination capacity on site-specific projects to determine 
whether federally listed species and species of concern would 
be impacted by proposed actions.
    The administrative boundaries defined in the QLG Forest 
Recovery Act encompass a significant portion of the range of 
the California spotted owl in the Sierra Nevada, representing 
approximately 30 percent of the owl's known California 
locations. Detailed studies in four areas of the Sierra Nevada, 
including one within the Lassen National Forest, have been 
conducted to calculate the rate of population change for 
California spotted owls. These calculations take into account 
survival and reproduction of owls.
    Numbers of California spotted owls are declining, as 
evidenced by population calculations and decreases in the 
number of occupied sites for all four study areas in the Sierra 
Nevada. Although cause and effect reasons for these declines 
have not been scientifically demonstrated, studies suggest that 
weather and habitat are important factors influencing the 
viability of the species. Habitat maintenance is essential 
because excessive loss of key landscape habitat components, 
such as mature and old growth forest, can exacerbate the 
effects of unfavorable climatic conditions on survival.
    Although landscape analyses linking habitat, survival, and 
reproduction of owls have been conducted for northern spotted 
owls, they have not been completed for California spotted owls. 
Directly extrapolating specific results from studies of 
northern spotted owls to California spotted owls in the QLG 
Forest Recovery Act project area is not appropriate due to 
differences in prey base and habitat quality.
    As a result, uncertainty remains over how much suitable 
habitat is needed at the landscape scale to promote long-term 
viability. Such analyses, however, are in progress to develop 
and/or refine a conservation strategy for the California 
spotted owl for the Sierra Nevada framework. Pending these 
results, we believe that any project occurring prior to the 
completion of this strategy should not foreclose future 
management options.
    The Fish and Wildlife Service and the Forest Service have 
worked together to modify the proposed action so it is 
consistent with the National Forest Management Act's viability 
regulations and the QLG Forest Recovery Act. We believe this 
modification will ensure the long-term viability of the owl and 
the maintenance of suitable habitat until a long-term regional 
conservation strategy is developed through the Sierra Nevada 
Framework this fall.
     Thank you again for the opportunity to present this 
testimony. This concludes my prepared remarks, and I will be 
glad to answer any questions.
    [The prepared statement of Mr. Spear follows:]

Statement of Mike Spear, Manager of California-Nevada Operations, Fish 
            and Wildlife Service, Department of the Interior

    Thank you for the opportunity to attend today's hearing and 
present testimony on the Fish and Wildlife Service's 
involvement with the Forest Service's Environmental Impact 
Statement as it relates to the Quincy Library Group (QLG) 
Forest Recovery Act.
    After the listing of the northern subspecies of the spotted 
owl in the Pacific Northwest as threatened under the Endangered 
Species Act of 1973 (ESA), Region 5 of the Forest Service and 
the Fish and Wildlife Service (FWS) began informal discussions 
regarding the status of the California sub-species of the 
spotted owl and the need to develop a comprehensive, range-wide 
management strategy to provide for the owl's long-term 
viability, and to preclude the need for its ESA listing. In 
1992, the Forest Service published a technical assessment of 
the owl's status, and provided an interim (three to five year) 
management strategy for the species. Because the California 
spotted owl is not a federally listed species, the Forest 
Service did not immediately confer with FWS regarding the 
adequacy of the proposed management strategy.
    In 1998, after several attempts to produce a comprehensive 
conservation strategy for the California spotted owl, the 
Forest Service engaged FWS in a cooperative and collaborative 
process known as the Sierra Nevada Framework for Conservation 
and Collaboration. The Framework's purpose is to amend existing 
plans for the eleven national forests in the Sierra Nevada to 
provide consistent, regional land management planning direction 
incorporating the most recent scientific information. The 
Framework will develop conservation strategies for a number of 
non-listed species to provide long-term viability of species of 
concern, now at risk in the Sierra Nevada. When completed, any 
conservation strategy developed in the Framework process will 
apply to all national forest lands in the Sierra Nevada, 
including those in the area covered under the QLG Forest 
Recovery Act.
    Concurrent with the Framework planning process, the Forest 
Service asked FWS for technical assistance in the development 
of a Draft Environmental Impact Statement (DEIS) to implement 
the legislation contained in the QLG Forest Recovery Act. In 
March 1999, we signed an interagency agreement with the Forest 
Service detailing our participation in the planning effort, and 
the roles and responsibilities of each agency. Our involvement 
was to ensure that the implementation of the QLG Forest 
Recovery Act would promote the survival and recovery of 
federally-listed threatened and endangered species and the 
viability of non-listed, at-risk species, thus precluding the 
need for their ESA listing.
    While working on the DEIS, FWS identified several concerns 
regarding the potential effects of the project on federally-
listed species and on the long-term viability of mature forest 
associated species of concern, such as the California spotted 
owl and Pacific fisher. These concerns focused on (1) 
potentially significant reductions in suitable nesting/denning, 
foraging and dispersal habitat, (2) habitat fragmentation, (3) 
changes in prey populations, and (4) introduction of non-native 
plant and animal species.
    In meetings with Forest Service staff, FWS identified 
concerns about the DEIS and potential adverse impacts on the 
long-term viability of the owl and associated forest species. 
These discussions continued after the DEIS was issued, and FWS 
provided detailed comments and recommendations to minimize 
these effects. Prior to the issuance of the Record of Decision 
and Final EIS, FWS was able to concur that the plan, as 
modified, was consistent with the basic provisions of the QLG 
Forest Recovery Act and not likely to affect listed species. 
The FWS and the Forest Service have also agreed to work 
cooperatively in an early consultation and coordination 
capacity on all site-specific projects to determine whether 
federally listed species and species of concern would be 
impacted by proposed actions.
    The administrative boundaries defined in the QLG Forest 
Recovery Act encompass a significant proportion of the range of 
the California spotted owl in the Sierra Nevada, representing 
approximately 30 percent of the owl's known California 
locations. Detailed studies in three areas of the Sierra 
Nevada, including one within the Lassen National Forest, have 
been conducted to calculate the rate of population change for 
California spotted owls. These calculations take into account 
survival and reproduction of owls.
    Numbers of California spotted owls are declining as 
evidenced by population calculations and decreases in the 
number of occupied sites for all three study areas in the 
Sierra Nevada. Although cause-and-effect reasons for these 
declines have not been scientifically demonstrated, studies 
suggest that weather and habitat are important factors 
influencing the viability of the species. Habitat maintenance 
is essential because excessive loss of key landscape habitat 
components, such as mature and old-growth forest, can 
exacerbate the effects of unfavorable climatic conditions on 
survival.
    Although landscape analyses linking habitat and survival 
and reproduction of owls have been conducted for northern 
spotted owls, they have not been completed for, California 
spotted owls. Directly extrapolating specific results from 
studies of northern spotted owls to California spotted owls in 
the QLG Forest Recovery Act project area is not appropriate due 
to differences in prey base and habitat quality. As a result, 
uncertainty remains over how much suitable habitat is needed at 
the landscape scale to promote long-term viability. Such 
analyses, however, are in progress to develop and/or refine a 
conservation strategy for the California spotted owl for the 
Sierra Nevada Framework. Pending these results, we believe that 
any project occurring prior to the completion of this strategy 
should not foreclose future management options. The FWS and the 
Forest Service have worked together to modify the proposed 
action so it is consistent with the National Forest Management 
Act's viability regulations and the QLG Forest Recovery Act. We 
believe this modification will ensure the long-term viability 
of the owl and the maintenance of suitable habitat until a 
long-term regional conservation strategy is developed through 
the Sierra Nevada Framework this fall.
    Thank you again for the opportunity to present this 
testimony. This concludes my prepared remarks, and I will 
gladly answer any questions that you might have.

    Mrs. Chenoweth. Thank you, Mr. Spear.
    I now recognize Congressman Herger for his questions.
    Mr. Herger. Thank you, Madam Chair.
    And I want to thank each of you--the Forest Service, the 
Fish and Wildlife--Mr. Powell, I remember when we were having 
some challenges at one point here a few months ago with 
consultation how you were back in Washington. I remember 
meeting with you just off the Ways and Means hearing room 
there, and I want to thank you for that. You went right to 
work, and we were able to solve those problems.
    We were able to get together, and I want to thank you and 
the Forest Service for working. We have had some other 
challenges, again, with the--in the other area. And, Mr. Spear, 
I want to thank you for your involvement. I know what I am 
saying I am also--I am not going to speak for Senator 
Feinstein, but I know I have heard her mention her appreciation 
for working together to--so that now we can begin the 
implementation of this legislation again.
    I don't know if we can say it too much. I have been in 
Congress--now my 13th year--I don't know if I have ever seen an 
issue that has been so controversial, but yet on the final--and 
was debated for three hours on the House floor, but in its 
final vote I go out 429 to 1. That really I think says a lot.
    Mr. Powell, when is your first QLG project going to be 
implemented? And what is our plan?
    Mr. Powell. Well, let me try and answer that, and then I 
may ask Mark Madrid to actually comment on that. But we will 
start the individual analysis of those projects very promptly. 
I think we all know we have an appeal period to go through, and 
the document itself becomes available to the public I believe 
on September 3rd. There will be a 45-day appeal period, and we 
will hope to start our analysis of projects very promptly 
thereafter.
    The actual implementation to some degree depends on what 
happens in appeal of this EIS, and certainly if any litigation 
were to occur at some point in time.
    Mark, any other comments on that?
    Mr. Madrid. I think the only thing I would add is that we 
have already begun some of the exact same things that Mr. 
Terhune brought up about looking at where we are, with the 
updating of maps, seeing what the effects are, we'll see what 
that decision is.
    And then just one thing for Brad is we are beginning to 
mail copies of the final EIS already, and we do have a few 
available here today, too, if some of you have requested a 
copy.
    Mr. Herger. Maybe you are beginning to answer this. Can we 
start this before the appeal period runs? It sounds like we 
have started some things.
    Mr. Powell. I think we can start the planning, certainly, 
of projects. It is the actual on-the-ground implementation that 
can't start. We would not implement any of the projects on the 
ground until that appeal went through. But we certainly can 
start the planning and have.
    Mr. Herger. What schedule have you developed for your first 
year of QLG? And, well, follow up with, how many acres do you--
will you do in 1999 and in 2000?
    Mr. Powell. Well, let me try and answer you, and those are 
difficult questions to answer because they are budget based. 
Particularly for this year, if we look at the current level of 
funding, we have received about half the funding to implement 
the full project.
    So if--and there is not a direct relationship to the 
dollars and exactly the acres, but based on our current 
estimate, if we were to look at half the budget, I would say we 
are going to implement about half the acres. Now, obviously, we 
don't have a final budget in place, and there are some other 
things that may change that.
    We have not developed a detailed schedule of analysis yet, 
but that is the very activity that the forests are starting to 
look at--where they are going to plan, how they can avoid 
spotted owl habitat, and which particular projects to begin 
with.
    Mr. Herger. Will you be having QLG assist you in this?
    Mr. Powell. I think we will be having not only QLG but the 
public assist us in this. As you well know, there are a variety 
of groups--Cattlemen's Association, certainly some of the 
conservation groups, and certainly the QLG Group will be 
interested in being involved in it.
    And then it is an open public process because we will 
follow NEPA, and we will go through individual analysis, so 
everyone that is interested will have an opportunity to 
participate.
    Mr. Herger. Now, let us see, the full budget was, what, $12 
million?
    Mr. Powell. I think for this year we have got about $12 
million. I think the full estimated budget to do the total is 
around $25 million, as I recollect.
    Mark, is that accurate?
    Mr. Madrid. Yes, that is correct.
    Mr. Herger. Now, that is for the five years?
    Mr. Powell. No, it is--that is an annual estimate.
    Mr. Herger. Of how much it will take?
    Mr. Powell. If you would like, we can furnish you----
    Mr. Herger. Okay.
    Mr. Powell. [continuing] our most recent cost estimates and 
even reference back to the earlier cost estimates that were 
made.
    Mr. Herger. And my understanding is that the earlier cost 
estimates were lower than what you are mentioning. Is that 
correct?
    Mr. Powell. That is not my recollection. But, again, let me 
furnish you that detailed information, both what the original 
estimates are and what they are currently.
    Mr. Herger. Again, we want to be working with you, if need 
be, day by day.
    Mr. Powell. We will furnish you that updated information.
    Mr. Herger. To make sure you have what is needed.
    I guess my concern is, you know, we have heard different 
numbers--$12 million, $8 million. You mentioned $12 million you 
thought you had. I think there is at least $8 million. I hope 
we are not raising this bar so high that we are----
    Mr. Powell. The remainder of the budget and the reason--
and, again, we will furnish that to you--but we have some 
carryover dollars from last year. I think, as you recollect, we 
only spent the dollars to do the EIS, so the remainder of that 
funding we still have available. When you add that to what we 
at least anticipate in this year's budget, our current estimate 
of two are around $12 million.
    Mr. Herger. Now, you will be able to use timber dollars 
also, is that not correct, from timber accounts?
     Mr. Powell. Certainly so.
    Mr. Herger. So, again, I think the point of, again, one of 
the purposes of this oversight hearing is to be able to work 
with you and work out any perceived or any problems that we 
see, potential problems out there, to make sure that we are 
doing what we need to do. And that five years may sound like a 
lot of time, but, I mean, five years will come and go very 
quickly. So it is very important that we not waste any time.
    Mr. Powell. I will provide you a very clear picture of that 
budget analysis.
    Mr. Herger. Thank you. Do you have the number of acres that 
you are targeting for 1999, the rest of this year, and for next 
year, 2000?
    Mr. Powell. Well, I don't know that we have broken down 
specifically the EIS, again, because that is a part of the 
analysis. We are projecting to do 40- to 60,000 a year. I think 
the EIS projection DFPZs--it will be around 216,000 acres 
throughout the life of the project. But again, site-
specifically, as George Terhune and others mentioned, we are 
going to try and adjust some of those to miss more habitat. But 
we plan to be in that 40- to 60,000 range, dependent upon 
budgets, of course.
    Mr. Herger. Okay. And we will be working with you to 
somehow ensure--this is a high priority of ours, was of the 
last Speaker, I might mention, as well as our current Speaker 
of the House--to see to it that we--you have the resources you 
have to implement this.
    Will QLG projects generate the net revenue to the Treasury, 
and how much?
    Mr. Powell. Well, certainly, they will produce revenues to 
the Treasury. The estimates that are in the EIS that have 
already been talked about today are our best estimates. Now, 
again, I think all of us know in the marketplace it is pretty 
hard for us to exactly project the revenues. Those are the 
estimates based on history. That is what we hope to be able to 
receive.
    But, again, there will be fair, open competition for the 
products that we sell, and we won't know exactly whether there 
is profit in that until we actually see the actual receipts.
    Mr. Herger. But as in historically we have returned--not 
recently, but at least historically, we actually have returned 
a profit to the Treasury, I think from some testimony we had 
from Mr. Frank Stewart, I know I think he used the--I forget, a 
number of a dollar put in, $1.38 out. But it--so----
    Mr. Powell. The real challenge--and certainly, those are 
our best estimates. But, again, when you--I am not an 
accountant, and the accountants could have a field day trying 
to explain this. But, obviously, those are looking at more 
benefits than just to the government. There are other benefits 
much beyond just us.
    What it costs us to prepare the sale and what we actually 
receive in is one set of figures. Then you start to look at 
some of those secondary benefits in the community, and that is 
obviously a much larger figure.
    Mr. Herger. And that is really a bonus, but that was not 
really what this was directed to. It was forest health.
    If the Sierra framework is not completed, will the QLG plan 
stand five years as Congress intended?
    Mr. Powell. If the Sierra Nevada Framework isn't completed, 
really, the tie is not just with the framework; it is a tie 
back to the work with the Quincy bill--is really the spotted 
owl direction for the future. I am confident that we will 
develop a range-wide spotted owl direction either through the 
framework, through other processes, or potentially even the 
listing of the owl. I would hate to see it come that way, but 
if there were a listing decision made on the owl, then, again, 
we would have other processes in place.
    So I don't know that I answered you directly. I anticipate 
that we will have new spotted owl direction across the range of 
the spotted owl in California that will, in essence, allow the 
project, the Quincy project, to move forward with that new 
direction. I hope it comes through the framework. That is our 
current plan. I see no reason that we won't succeed at that.
    Mr. Herger. I just have to interject at this point that 
when we have catastrophic fires, which this QLG is working to 
help prevent, there isn't any habitat. It is 100 percent 
destroyed. So hopefully our--one of our major goals is to 
preserve habitat.
    Mr. Powell. Just to comment on that, because certainly we 
recognize that, Fish and Wildlife Service recognizes that. That 
is one of the significant challenges in the framework is to 
look at different management scenarios that provide the 
protection of habitat, provide economic benefits, at the same 
time result in a forest that is healthy and can sustain itself 
against fire. That is a tough, complex issue to resolve. That 
is exactly what the framework is trying to take a look at.
    Mr. Herger. And, Mr. Spear, isn't this our problem as we 
have these catastrophic fires around is that we are completely 
destroying, for maybe a hundred or a couple hundred years, this 
habitat of the owls and others completely?
    Mr. Spear. I couldn't agree with that more, and I think 
that has been one of the misunderstandings about perhaps the 
view of the Fish and Wildlife Service and the role of the 
Endangered Species Act, is that we have to take that into 
account. That is a factor that is out there in the landscape, 
and it is one of the overall, most devastating factors.
    Before I came down to Sacramento, I was up in Portland 
involved in the Upper Columbia Basin Project. And, of course--
well, that hasn't gotten finally completed yet. It was the 
fundamental issue up there in the--Mrs. Chenoweth's area, 
that--and the same dilemma was faced, and that is, how do you 
deal with the fire factors while also dealing with the other 
concerns? In that case, both trout and salmon being one of the 
largest issues.
    Where we are down here, if I were, you know, to go on a 
second, is that just as Brad has said, we feel we are near 
bringing this new science out to the public, having that 
debate, that review that QLG members talked about earlier, and 
then that will lead us to some new prescriptions.
    One of the things I am most pleased about in working with 
the Forest Service on this in the last few months is their 
strong desire, along with ours, to try to do something that 
will not, you know, precipitate or increase the probabilities 
of a listing.
    I think they have taken a very appropriate attack here 
because we are--as I say, we are close to having the new 
science put on the table for all to see the data discussed and 
hopefully come out with something that says, ``This is the best 
way to balance these various factors.''
    Mr. Herger. Well, thank you. And, of course, our concern is 
that if we are, for whatever reason, not able to actually 
implement this QLG plan, which, again, I believe and many 
believe is historic and perhaps one of the first times, if not 
the first time, that we are actually trying to come up and plan 
for the entire picture, that we have lost an incredible 
opportunity that we may not see again.
    Mr. Powell, in modeling for fuel breaks, I understand that 
there were no large fires considered in the modeling?
    Mr. Powell. Let me try and explain what was done there.
    Mr. Herger. Would it make EIS selecting Alternative 2 more 
defensible if the modeling considered the type of large fires 
that occur in these forests?
    Mr. Powell. Let me try and explain, and we have had 
extensive conversations with members of the Quincy Group and 
our own technical team on that. I might ask Mark to comment 
when I am done.
    The challenge that we have here is we have utilized the 
best fire experts that we have available, and we used the 
latest models that we have available. We tried to make those 
models work the way that we think they best would mimic nature. 
And I think the results that we got out of those are purely 
defensible, they are scientifically defensible.
    I do think we all recognize that models are not perfect, 
and we in the framework, in particular, are trying to develop a 
new model using the best scientists that are available. We 
simply didn't have that available for the Quincy Project. I do 
think it was modeled appropriately. I think it shows very well 
the difference between alternatives.
    Is there some potential you could have had bigger fires? 
Certainly. And we certainly recognize that. But we didn't try 
to artificially constrain it. We tried to use assumptions that 
we think are realistic, and then allow the model to output what 
would happen.
    The important part of the model isn't the exact number; it 
is in comparing between alternatives, because you use that same 
model in every alternative. That is what was important to us.
    Mark, you may want to comment on the technical side of it.
    Mr. Madrid. Yes, I think that pretty much covers it. One of 
the things that happen as we do site-specific EAs, the modeling 
will be more accurate for smaller areas as we do that. So from 
that standpoint, we will still use the best available science, 
the most accurate models to do that, as we do the site-specific 
projects.
    So it is kind of a double way of looking at that, getting 
an estimate of the true fire risk we have in certain areas.
    Mr. Herger. Thank you.
    Madam Chair?
    Mrs. Chenoweth. Thank you, Mr. Herger.
    Mr. Spear, I wanted to ask you about the owl population. I 
have received comment and testimony in my committee in 
Washington that actually the Northern California spotted owl's 
population was probably greater than that which was in pre-
Columbian times.
    And I remember that being a significant piece of 
information to me because I wondered how they measured the 
population in pre-Columbian times. And now I hear testimony 
that you have given that the owl population is again in 
decline.
    Mr. Spear. You are right.
    Mrs. Chenoweth. Go ahead.
    Mr. Spear. You started out--you are speaking about the 
northern spotted owl, and then----
    Mrs. Chenoweth. Northern California spotted owl.
    Mr. Spear. I was speaking about the California spotted owl. 
The reports are now, the information that is emerging, is that 
there is a decline in the four different study areas that they 
have looked at. There are different amounts, and I think that 
the sample set is probably not large enough to draw good 
numbers about exactly the rate of decline.
    But the general sense among the scientists is that it is in 
decline. And if it continues in that way, there is a debate 
over the reasons why. How much of it is related to habitat is 
part of that debate.
    But I think as the information, you know, comes out and 
becomes more public, I think it will be pretty clear that the 
sense of the scientists is that it is in decline.
    Mrs. Chenoweth. Gosh. No wonder it is so hard to implement 
these programs, because we see testimony coming from top people 
in the agency that contradicts itself from one month to the 
next. And I think that is in large part what Mr. Jackson was 
talking about. So it is very difficult to plan.
    What is the difference between the Northern California 
spotted owl and the other spotted owls?
    Mr. Spear. The differences are----
    Mrs. Chenoweth. Existing in California.
    Mr. Spear. The northern spotted owl is along the coast, and 
basically a cutoff line from about Redding heading to the east 
and then toward that area around the north in the--and then 
down along the coast into Encino County, and then it joins up 
with Oregon and Washington.
    The difference is, well, when the ornithologists get 
together they look at fine differences, and they have cited 
that there is a different subspecies in the California 
basically south of here, in the Sierras and down into Southern 
California.
    If you wanted to get some--the fine details on the 
differences as they reported them in their taxonomic 
literature, I would like to provide that in writing because I 
am not----
    Mrs. Chenoweth. Well, I----
    Mr. Spear. [continuing] aware of those details.
    Mrs. Chenoweth. I would be happy to look at their taxonomic 
literature. But the fact is isn't the--doesn't the statute 
require--and the guidelines that have been promulgated--require 
it to be a genetic difference, not a geologic difference? And 
aren't the ornithologists looking at a geologic----
    Mr. Spear. Geographic.
    Mrs. Chenoweth. Geographic difference?
    Mr. Spear. No. These will be differences as--that are not 
just geographic.
    Mrs. Chenoweth. But gene pool is found to be different?
    Mr. Spear. Whether they have used data like, you know, the 
sizes of bones or different colorations, there is different 
types of things that they use. And prior to, you know, sort of 
modern examinations of genes and getting down into the DNA that 
they can do now, they used other features to make these 
distinctions between subspecies.
    But it is a clear subspecies that has been approved in the 
taxonomic literature through the peer review process. And, 
therefore, it is treated differently, and that is why it is not 
listed now along with the northern spotted owl.
    Mrs. Chenoweth. Can these subspecies reproduce?
    Mr. Spear. Yes.
    Mrs. Chenoweth. They are able to produce offspring.
    Mr. Spear. Yes.
    Mrs. Chenoweth. That are----
    Mr. Spear. And there is a----
    Mrs. Chenoweth. ----[continuing] genetically identical to 
both parents?
    Mr. Spear. There is a gradation, there is an area of 
blending basically to the east of here where the two--the two 
probably interact to a very small degree.
    Mrs. Chenoweth. I still wonder how they can determine how 
many Northern California spotted owls are in existence before 
Columbia--before Columbus hit the east coast.
    Mr. Spear. Well, I believe that is probably is a pretty 
good question.
    Mrs. Chenoweth. And your answer, I would assume, is they 
don't know, really.
    Mr. Spear. They don't know really. But I suspect they 
looked at basically the amount of habitat and the basic--the 
home range size for a pair and made some determination and then 
calculated how much might have been disturbed by other factors 
at any one time. But I don't know how useful the number is.
    Mrs. Chenoweth. Tell me, Mr. Spear, isn't it logical to 
conclude that probably a number of owls have also been 
destroyed in the massive fires, and they have possibly declined 
because their habitat has been destroyed?
    Mr. Spear. Absolutely.
    Mrs. Chenoweth. That they themselves have been----
    Mr. Spear. We wouldn't argue that a bit.
    Mrs. Chenoweth. And so, then, wouldn't that lead us to 
conclude that implementation of programs such as the QLG 
legislation and that program would actually enhance the owl 
population?
    Mr. Spear. Well, I think that is where you get into the 
fine line as we look at the new science. The decision made by 
the Forest Service I think is to some extent based on the 
proximity in time of the new science coming forward. I would 
suspect it might have been different if they thought we were 
years away from having anything out there in the public to draw 
upon to develop a new formula for prescriptions.
    But the sense of people is that the new information will be 
brought forth relatively quickly, that debate that was talked 
about for the QLG members will take place, the framework 
discussion will examine that, and we will look at what is 
needed, both at more local levels and across the range for the 
owls.
    And it is that balancing--Fish and Wildlife Service is not 
saying, for instance, has not said that nothing can be done in 
suitable habitat. But we were not confident with the amount of 
the treatment and the degree of the treatment within suitable 
habitat as contemplated by the unmodified option 2.
    We had a sense that it would definitely take it below what 
is suitable for the owl, and the question is maybe there is--
you know, I use the term ``a lighter touch'' that could take 
place in suitable habitat that will serve most of the purposes 
of a defensible fuel zone but also maintain the habitat for the 
owls. And so it is that fine tuning that I think we are looking 
for as we reach--look at these common objectives of owl 
preservation and fire protection.
    I think that is where we are, and it is not far off.
    Mrs. Chenoweth. I would like to ask Mr. Terhune or Mr. 
Jackson to respond to that particular--or, Mr. Murphy, you are 
still here--any one of you to be able to respond to that point. 
Would one of you--would you please come to the mike?
    Mr. Murphy. I believe there is at least a combination of 
answers here that is kind of unique. Mr. Powell told us that we 
don't yet have models that deal with the large fires. So the 
question is: what data did the Fish and Wildlife Service use to 
determine the impact differences? They used the models that 
don't deal with the large fires.
    So the modeling data provided by the Forest Service said 
there was 2,000 acres of potential owl habitat saved by 
Alternative 2, as compared to the other alternatives. Well, 
every one of those fires on that map today has the potential to 
do well beyond 2,000 acres of damage to the owl. That data was 
not in the Fish and Wildlife Service's analysis.
    So the model issue is very important if large, catastrophic 
fires are a likelihood in these forests, and we can look at 
potentially, in a three-day time period, losing 50- or 60,000 
acres of suitable habitat. Then this issue of model is an 
extremely important one because it would then give the Fish and 
Wildlife Service a data set of risk that is substantially 
higher. And a program like the Quincy Library Group program 
that substantially alters that risk would then actually be 
viewed as a very positive thing to do for owls.
    So it is sort of a combination. The science on the modeling 
is not there yet. The evidence on the map is, which is that we 
have had 100,000 acres of habitat burned up in the last seven 
years in catastrophic events. And that was not taken into 
account in the analysis of viability of the alternatives 
relative to owl habitat impact.
    Mrs. Chenoweth. Mr. Murphy, Mr. Spear, and Mr. Powell, I 
want to ask all three of you, how could we get this data set 
into the model to make the model accurate and workable?
    Mr. Murphy. I think you are talking about the fire model, 
and that is not my expertise. So I will----
    Mrs. Chenoweth. Mr. Powell?
    Mr. Murphy. ----[continuing] pass it to Brad.
    Mr. Powell. Let me try again, because I don't want to get 
into a modeling analysis process here. I think the dilemma we 
have is we recognize that the model that we are utilizing is 
the best--simply the best model that is available. We also 
recognize that anytime you are trying to project wildfire that 
there are some uncertainties to that.
    Now, the contention that we have somehow kept these fires 
or the potential of fires from being large, catastrophic fires 
is simply not accurate. It is just that we have, when we 
plugged in the assumptions we think are accurate, the amount of 
fire that has been projected isn't as large as some of the 
fires that have occurred.
    And we are developing a new model. That is exactly what we 
are utilizing in the framework, and I am quite confident when 
the framework is completed we are going to have the best 
modeling analysis that is available to us.
    Mrs. Chenoweth. Mr. Powell, for the record, I just want to 
make one thing very clear. We will not allocate money from the 
taxpayers to pay for a model that doesn't consider more than 
2,000, as Mr. Murphy has pointed out, that does not have basic, 
objective, scientific data. We just simply cannot pay for a pig 
in the poke. Now, we want to be able to fund this project.
    Mr. Powell. Let me respond, though. Again, I don't believe 
that is exactly what he said. He can comment himself. The model 
didn't project that it was just going to be 2,000 acres of 
fire. But it projected larger fires than that.
    Mrs. Chenoweth. Mr. Murphy, would you please clarify that?
    Mr. Murphy. Yes. The model that was used did project an 
upward limit of a 7,500-acre fire.
    Mrs. Chenoweth. Okay.
    Mr. Murphy. And what I was talking about was the net 
difference in saved habitat was calculated to only be 2,000 
acres of Alternative 2, compared to the other alternatives. And 
that is what--because of the use of these models, the 
difference between them, the value of the programs, was not 
elucidated by the models. And so this 2,000-acre savings was 
what the Fish and Wildlife Service said, ``We can't risk 50,000 
acres of owl habitat to only save two.''
    But when we have one fire that can take 60,000 acres out, 
then that analysis would be reversed. And, in fact, when 
questioned, they said they would, given an alternate set of 
data that would indicate a higher risk in terms of acres of 
habitat lost, they would have given a different opinion as to 
the viability of Alternative 2, if the analysis had led to the 
risk of large areas of owl habitat being lost.
    That is the real problem. Hopefully, the framework will--
and in answer to your last question, the SNEP scientists did do 
this kind of modeling, and did the process, and they suggested 
strongly that fuel treatments be considered, that defensible 
fuel profile zones be tested, because of their net benefit to 
saving and reducing the effects of catastrophic wildfire.
    Mrs. Chenoweth. That would make the EIS more defensible.
    Mr. Murphy. Oh, absolutely. There would be no doubt that 
Alternative 2 not only would have been the preferred 
alternative, as it is, it would also clearly have been labeled 
the environmentally preferred alternative.
    Mrs. Chenoweth. I think the thing that we are--that I am 
striving for, and the focus that I have, is to make sure that 
we have a defensible model, and one that will really work on 
the ground. And that is what we are going to be looking at in 
funding, and I want to see this budget. I want it to continue 
to serve as a beacon for other projects.
    When we have a dispute over something as basic as a model, 
I become concerned then. So may I be assured of your 
cooperation in working with the other members of the QLG and 
making sure that this model is one that we can all defend, and 
that Mr. Herger and I can defend it on the floor of the House 
also?
    Mr. Murphy. Well, let me assure you this way. We are going 
to utilize the best scientists that are available to us in 
preparing this model. I think that's the best place to be in 
terms of a political strategy and a defensible model. We are 
currently contracting with some of the top scientists in the 
country to deal with fire issues on.
    Mrs. Chenoweth. Okay. Well, we will be watching that and 
working with you.
    I have some questions about some of the testimony that was 
given earlier. We have worked very hard to get the EIS finished 
on time, and it was finished ahead of time. And everyone 
appreciates that, but there was a delay somewhere in 
Washington, DC, that caused you to miss the statutory deadline 
by a few days. Who caused the delay?
    Mr. Powell. Well, I guess in a simple sense you can say I 
caused the delay. I expected, and I think it is in all of our 
best interests to have, this be a legally defensible decision. 
After we had crafted the EIS and completed the record of 
decision, I asked for, in consultation with our leadership in 
Washington, to have this reviewed by both our OGC counsel and 
our Department of Justice folks and staff in Washington. That 
simply took a little longer because of complexities of the 
record of decision.
    Mrs. Chenoweth. Who in Washington, from the Department of 
Agriculture and the Department of Justice, worked on this?
    Mr. Powell. I can furnish you the names. I don't have them 
with me today. But we had our staff in Wildlife and our staff 
in Planning and then counsel from DOJ and OGC. If you would 
like the names----
    Mrs. Chenoweth. I would like for you to provide that to the 
Committee.
    Now, I have a concern about the changes that occurred in 
the EIS. I would like for you to point out to me the specific 
changes that were made or suggested in the EIS.
    Mr. Powell. Well, let me try and do that in a very quick 
fashion, because I am not sure exactly what you mean in changes 
to the EIS. But in the record of decision, the primary change 
in Alternative 2 was an adjustment to defer or delay entry into 
any spotted owl habitat until we had this new spotted owl 
direction that we have talked about today that will be a part 
of the framework.
    There are some other minor changes in the record of 
decision, but I think that is the primary one that you would be 
interested in. That change was made based on our view of the 
viability regulations under the National Forest Management Act 
and trying to make sure that we had a legally defensible 
decision that did not violate any other environmental laws.
    Mrs. Chenoweth. What I would like for you to furnish for 
the Committee is changes that only changed even two letters. I 
would like to see every change that was made during that time.
    Mr. Powell. Can I ask for a clarification? Because I am not 
sure--changes to Alternative 2 in the ROD, is that what you are 
requesting?
    Mrs. Chenoweth. Changes that were made when you were 
bulletproofing the EIS.
    Mr. Powell. The EIS itself had few, if any, changes in it. 
What we were doing was crafting the record of decision that the 
forest supervisors made their decision and documented with. So 
in the EIS--and, Mark, you may want to comment--I am not aware 
of any changes that were made in the EIS. There may have been 
some editorial. We can furnish you that.
    Mrs. Chenoweth. Would you, please?
    Mr. Powell. But the record of decision itself was being 
crafted. So it would be hard to tell you changes because there 
really was never a record of decision that would----
    Mrs. Chenoweth. Well, what new information do we have on 
the owls now that generated between the draft and the final of 
the EIS that caused the delay and these changes in the ROD? 
That is what I am after.
    Mr. Powell. Mike may want to comment on this as well, but 
we were aware--and Duane and others in the QLG Group was 
aware--at the time the draft came out that we had concerns 
about spotted owls, based on the demographic studies that were 
done, based on the research, based on the advice of our 
biologists, and based on the viability work that went into the 
biological assessment, even at the draft. We continued to work 
on that between draft and final.
    Mrs. Chenoweth. These are the changes I would like to see.
    Mr. Powell. We would be happy to furnish those for you.
    Mrs. Chenoweth. Mr. Spear, we heard testimony earlier about 
the California red-legged frog, and the fact that there seems 
to be language in the guidelines that is not specific or 
definitive. And as it has been explained to me through the 
testimony that I have heard, this in and of itself could serve 
to legally undo the Quincy Library Group project because it is 
not specific. And how did that occur? How did it--how did these 
unspecified, undefined pieces of language get in the 
guidelines?
    Mr. Spear. Well, the red-legged frog is a listed species.
    Mrs. Chenoweth. Right.
    Mr. Spear. So in our discussions with the Forest Service 
over listed species, under normal consultation procedures, we 
provided in this case sort of standard language about survey 
protocols that we would use. And the Forest Service included 
the language I think dealing both with their viability issues 
and our concerns about using appropriate survey techniques to--
for appropriate conservation of the red-legged frog. And I 
think the fundamental thing we are talking about is that those 
areas that are unsurveyed need to be surveyed.
    Mrs. Chenoweth. How many areas are unsurveyed?
    Mr. Spear. I don't know. I would be happy to try to give 
you some sense of that in the area. But----
    Mrs. Chenoweth. How many red-legged frogs are there? Do you 
know where they are?
    Mr. Spear. They are in the foothills in the Central Valley. 
Their range is quite large, but they are relatively rare in 
certain ranges, not in other ranges. And this is sort of the 
northern extent of their range up in this area in the foothills 
in this part of the state.
    Mrs. Chenoweth. Mr. Spear, how does the red-legged frog 
population respond to fire?
    Mr. Spear. How does it respond to fire? Probably depends on 
the nature of the fire, and, you know, what state of their life 
they are in, the nature of the fire that passes over. That gets 
into a level of detail that I would be happy to get back to you 
with.
    Mrs. Chenoweth. Your answers indicate to me that the lack 
of specificity could serve to undo the very essence of the QLG 
legislation and something that is a hallmark nationally. So we 
must--I must ask you to work very closely with the Forest 
Service, the QLG Group, and come up with specifics before we 
begin limiting activity. I am very concerned about this and 
will be watching it very closely.
    Mr. Spear. I think the specifics you talk about are the 
types of things that come into that at the project planning 
stage when the project gets into that kind of detail.
    Mrs. Chenoweth. Well, I have learned while I have been in 
Congress that I need to look at the worst case scenario down 
the pike. And I would love to be comfortable with that 
statement, but I can't be. And so I would ask you again to have 
your agency work very closely with the Forest Service, QLG 
Group, and let us tighten up those definitions.
    I would like to work with Mr. Herger to make sure that the 
surveys are done and completed in a timely manner, so that we 
don't see anything held back.
    Do you have any other comments that you would like to make?
    Mr. Spear. I will be happy to do just as you say.
    Mrs. Chenoweth. Okay. Mr. Herger, do you have any other 
questions?
    Mr. Herger. Maybe one last one.
    Mr. Powell, will the QLG program supplant your regular 
timber sale program?
    Mr. Powell. I am not sure how to answer that. On those 
forests, this will be the primary timber sale program in the 
specified area. Now, certainly on the Tahoe there are other 
districts outside the QLG area. But in the QLG area itself, the 
Quincy Library Group area, it will be the primary timber sale 
program. It is where we are going to put our funding and our 
primary efforts.
    Mark, would you care to comment?
    Mr. Madrid. That is exactly right. This will be our 
vegetative management program across the board in this project 
area.
    Mr. Herger. And I guess just to expand the question, some 
38 mills have closed in the 10 counties that I represent in the 
last few years. And there is--has been some concern that while 
we implement this program here, which is very important, that, 
say, outside these three national forests that perhaps budget 
or whatever we are doing does not somehow supplant where we are 
not doing the work we would normally be doing in these other 
areas because of this.
    Mr. Powell. But, again, that is a budget question. And it 
is certainly a valid issue around the state, not just with 
timber sales but fuels management. If we have to take and fund 
that out of the regional funds, without there being additional 
funds, it will take some of the opportunity to have timber 
sales or fuels management projects.
    Currently, with the scenario of additional funding, it 
should have no impact on those other projects.
    Mr. Herger. Thank you. And that is what we are--that was 
the intent, was that we would give you the additional funding 
so that it would not supplant ongoing projects planned before 
the QLG became a reality. We would like, as a Congress, to 
see--and certainly, I, as a representative--to see them 
continue.
    Mr. Powell. Okay.
    Mr. Herger. Well, I have no further questions.
     Mrs. Chenoweth. Thank you, Mr. Herger.
    I just have one further question, and that is to Mr. 
Powell. Originally, when we were working on the legislation, we 
actually set aside some 400,000 acres of roadless areas that 
were off limits to the QLG activities. My concern is: is that 
reflected in the EIS as a mitigation measure? I know it was a 
legislative mitigation measure, but is it also reflected in the 
environmental impact statement and the record of decision?
    Mr. Powell. The off base or deferred areas that I referred 
to in my testimony are reflected. I think it is actually more 
than 400,000. I could look up the exact thing, the exact 
number.
    Mrs. Chenoweth. That makes me happy.
    Mr. Powell. I think it is 800,000. Those areas are not 
planned for this type of treatment, either the DFPZs or the 
group selection. They are reflected as a part of the decision. 
They are a part of the overall planning of the project.
    Mr. Herger. Thank you.
    Mrs. Chenoweth. All right. We may--and I likely will have 
additional questions that--I do want to study the record, and I 
will get back to you with written questions, both of you. And I 
want to thank you for being here and for your testimony.
    And I want to thank you ahead of time for your continued 
cooperation. I have peppered you with some pretty tough 
questions, but I want from the bottom of my heart to thank you 
for the cooperation that we have seen demonstrated with the 
QLG. And it heartens me to think that it will continue.
    Thank you very much.
    And, Mr. Herger, do you have any final comments?
    Mr. Herger. I do. Madam Chair, I want to thank you so very 
much for taking time out of your August recess to hold a 
hearing here in our Second Congressional District of 
California. We are all--certainly myself--very indebted to you 
for the work you have done over the several years that we have 
worked together on passing this legislation.
    Thank you so very much for the contribution that you give 
not only to your district in Idaho but to us here in Northern 
California and to our entire nation. So thank you so very much.
    I want to thank each one of our panelists this morning for 
being here, for everyone who has been involved in this historic 
legislation and plan to--for the first time, rather than just 
environmentalists and those in the wood products industry 
working--literally loggerheads, to actually come together with 
a plan that helps solve the problems, not just talk and fight 
about them, but literally come together to solve the problems.
    To each of you, I am indebted, as are everyone here in our 
district and, again, throughout the nation. Thank you very 
much, one and all.
    Thank you, Madam Chair.
    Mrs. Chenoweth. Thank you, Mr. Herger. You are an 
inspiration. You really are.
    And I want to recognize our staff. I can tell you that 
these hearings are not easy to put together, and the detailed 
work that has been done really helps the Congressmen in their 
work. We have such able staff. I want to recognize Erica 
Rosenberg, who is the minority counsel, who is here from 
Washington, DC. I want to recognize, of course, Joanne Gibson, 
who is minority counsel from Washington, DC; Mike Correia, who 
is our subcommittee clerk; and our Court Reporter, William 
Rayherd, who is from Santa Rosa, California. It is a tough job 
and I appreciate your good work.
    And I also want to acknowledge Fran Peace, who is here from 
Wally Herger's district office. Fran, where are you? There you 
are right there in the front row.
    And Georgia Golling from my district office in Washington, 
DC. She is in the back row there.
    Thank you all. You are wonderful people to work with.
    And I want to thank the witnesses again for your fine 
testimony. And we have asked to have some questions answered, 
and I would appreciate if you could answer them within 10 
working days.
    So thank you all very much, and this hearing is adjourned.
    [The prepared statement of Ms. Feinstein follows:]
    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

    [GRAPHIC] [TIFF OMITTED] T2242.010
    
    [GRAPHIC] [TIFF OMITTED] T2242.011
    
    [GRAPHIC] [TIFF OMITTED] T2242.012
    
    [GRAPHIC] [TIFF OMITTED] T2242.013
    
    [GRAPHIC] [TIFF OMITTED] T2242.014
    
    [GRAPHIC] [TIFF OMITTED] T2242.015
    
    [GRAPHIC] [TIFF OMITTED] T2242.016
    
    [GRAPHIC] [TIFF OMITTED] T2242.017
    
    [GRAPHIC] [TIFF OMITTED] T2242.018
    
    [GRAPHIC] [TIFF OMITTED] T2242.019
    
    [GRAPHIC] [TIFF OMITTED] T2242.020
    
    [GRAPHIC] [TIFF OMITTED] T2242.021
    
    [GRAPHIC] [TIFF OMITTED] T2242.022
    
    [GRAPHIC] [TIFF OMITTED] T2242.023
    
    [GRAPHIC] [TIFF OMITTED] T2242.024
    
    [GRAPHIC] [TIFF OMITTED] T2242.025
    
    [GRAPHIC] [TIFF OMITTED] T2242.026
    
    [GRAPHIC] [TIFF OMITTED] T2242.027
    
    [GRAPHIC] [TIFF OMITTED] T2242.028
    
    [GRAPHIC] [TIFF OMITTED] T2242.029
    
    [GRAPHIC] [TIFF OMITTED] T2242.030
    
    [GRAPHIC] [TIFF OMITTED] T2242.031
    
    [GRAPHIC] [TIFF OMITTED] T2242.032
    
    [GRAPHIC] [TIFF OMITTED] T2242.033
    
    [GRAPHIC] [TIFF OMITTED] T2242.034
    
    [GRAPHIC] [TIFF OMITTED] T2242.035
    
    [GRAPHIC] [TIFF OMITTED] T2242.036
    
    [GRAPHIC] [TIFF OMITTED] T2242.037
    
    [GRAPHIC] [TIFF OMITTED] T2242.038
    
    [GRAPHIC] [TIFF OMITTED] T2242.039
    
    [GRAPHIC] [TIFF OMITTED] T2242.040
    
    [GRAPHIC] [TIFF OMITTED] T2242.041
    
    [GRAPHIC] [TIFF OMITTED] T2242.042
    
    [GRAPHIC] [TIFF OMITTED] T2242.043
    
    [GRAPHIC] [TIFF OMITTED] T2242.044
    
    [GRAPHIC] [TIFF OMITTED] T2242.045
    
    [GRAPHIC] [TIFF OMITTED] T2242.046
    
    [GRAPHIC] [TIFF OMITTED] T2242.047
    
    [GRAPHIC] [TIFF OMITTED] T2242.048
    
    [GRAPHIC] [TIFF OMITTED] T2242.049
    
    [GRAPHIC] [TIFF OMITTED] T2242.050
    
    [GRAPHIC] [TIFF OMITTED] T2242.051
    
    [GRAPHIC] [TIFF OMITTED] T2242.052
    
    [GRAPHIC] [TIFF OMITTED] T2242.053
    
    [GRAPHIC] [TIFF OMITTED] T2242.054
    
    [GRAPHIC] [TIFF OMITTED] T2242.055
    
    [GRAPHIC] [TIFF OMITTED] T2242.056
    
    [GRAPHIC] [TIFF OMITTED] T2242.057
    
    [GRAPHIC] [TIFF OMITTED] T2242.058
    
    [GRAPHIC] [TIFF OMITTED] T2242.059
    
    [GRAPHIC] [TIFF OMITTED] T2242.060
    
    [GRAPHIC] [TIFF OMITTED] T2242.061
    
    [GRAPHIC] [TIFF OMITTED] T2242.062
    
    [GRAPHIC] [TIFF OMITTED] T2242.063
    
    [GRAPHIC] [TIFF OMITTED] T2242.064
    
    [GRAPHIC] [TIFF OMITTED] T2242.065
    
    [GRAPHIC] [TIFF OMITTED] T2242.066
    
    [GRAPHIC] [TIFF OMITTED] T2242.067
    
    [GRAPHIC] [TIFF OMITTED] T2242.068
    
    [GRAPHIC] [TIFF OMITTED] T2242.069
    
    [GRAPHIC] [TIFF OMITTED] T2242.070
    
    [GRAPHIC] [TIFF OMITTED] T2242.071
    
    [GRAPHIC] [TIFF OMITTED] T2242.072
    
    [GRAPHIC] [TIFF OMITTED] T2242.073
    
    [GRAPHIC] [TIFF OMITTED] T2242.074
    
    [GRAPHIC] [TIFF OMITTED] T2242.075
    
    [GRAPHIC] [TIFF OMITTED] T2242.076
    
    [GRAPHIC] [TIFF OMITTED] T2242.077
    
    [GRAPHIC] [TIFF OMITTED] T2242.078
    
    [GRAPHIC] [TIFF OMITTED] T2242.079
    
    [GRAPHIC] [TIFF OMITTED] T2242.080
    
    [GRAPHIC] [TIFF OMITTED] T2242.081
    
    [GRAPHIC] [TIFF OMITTED] T2242.082
    
    [GRAPHIC] [TIFF OMITTED] T2242.083
    
    [GRAPHIC] [TIFF OMITTED] T2242.084
    
    [GRAPHIC] [TIFF OMITTED] T2242.085
    
    [GRAPHIC] [TIFF OMITTED] T2242.086
    
    [GRAPHIC] [TIFF OMITTED] T2242.087
    
    [GRAPHIC] [TIFF OMITTED] T2242.088
    
    [GRAPHIC] [TIFF OMITTED] T2242.089
    
    [GRAPHIC] [TIFF OMITTED] T2242.090
    
    [GRAPHIC] [TIFF OMITTED] T2242.091
    
    [GRAPHIC] [TIFF OMITTED] T2242.092
    
    [GRAPHIC] [TIFF OMITTED] T2242.093
    
    [GRAPHIC] [TIFF OMITTED] T2242.094
    
    [GRAPHIC] [TIFF OMITTED] T2242.095
    
    [GRAPHIC] [TIFF OMITTED] T2242.096
    
    [GRAPHIC] [TIFF OMITTED] T2242.097
    
    [GRAPHIC] [TIFF OMITTED] T2242.098
    
    [GRAPHIC] [TIFF OMITTED] T2242.099
    
    [GRAPHIC] [TIFF OMITTED] T2242.100
    
    [GRAPHIC] [TIFF OMITTED] T2242.101
    
    [GRAPHIC] [TIFF OMITTED] T2242.102
    
    [GRAPHIC] [TIFF OMITTED] T2242.103
    
    [GRAPHIC] [TIFF OMITTED] T2242.104
    
    [GRAPHIC] [TIFF OMITTED] T2242.105
    
    [GRAPHIC] [TIFF OMITTED] T2242.106
    
    [GRAPHIC] [TIFF OMITTED] T2242.107
    
    [GRAPHIC] [TIFF OMITTED] T2242.108
    
    [GRAPHIC] [TIFF OMITTED] T2242.109
    
    [GRAPHIC] [TIFF OMITTED] T2242.110
    
    [GRAPHIC] [TIFF OMITTED] T2242.111
    
    [GRAPHIC] [TIFF OMITTED] T2242.112
    
    [GRAPHIC] [TIFF OMITTED] T2242.113
    
    [GRAPHIC] [TIFF OMITTED] T2242.114
    
    [GRAPHIC] [TIFF OMITTED] T2242.115
    
    [GRAPHIC] [TIFF OMITTED] T2242.116
    
    [GRAPHIC] [TIFF OMITTED] T2242.117
    
    [GRAPHIC] [TIFF OMITTED] T2242.118
    
    [GRAPHIC] [TIFF OMITTED] T2242.119
    
    [GRAPHIC] [TIFF OMITTED] T2242.120
    
    [GRAPHIC] [TIFF OMITTED] T2242.121
    
    [GRAPHIC] [TIFF OMITTED] T2242.122
    
    [GRAPHIC] [TIFF OMITTED] T2242.123
    
    [GRAPHIC] [TIFF OMITTED] T2242.124
    
    [GRAPHIC] [TIFF OMITTED] T2242.125
    
    [GRAPHIC] [TIFF OMITTED] T2242.126
    
    [GRAPHIC] [TIFF OMITTED] T2242.127
    
    [GRAPHIC] [TIFF OMITTED] T2242.128
    
    [GRAPHIC] [TIFF OMITTED] T2242.129
    
    [GRAPHIC] [TIFF OMITTED] T2242.130
    
    [GRAPHIC] [TIFF OMITTED] T2242.131
    
    [GRAPHIC] [TIFF OMITTED] T2242.132
    
    [GRAPHIC] [TIFF OMITTED] T2242.133
    
    [GRAPHIC] [TIFF OMITTED] T2242.134
    
    [GRAPHIC] [TIFF OMITTED] T2242.135
    
    [GRAPHIC] [TIFF OMITTED] T2242.136
    
    [GRAPHIC] [TIFF OMITTED] T2242.137
    
    [GRAPHIC] [TIFF OMITTED] T2242.138
    
    [GRAPHIC] [TIFF OMITTED] T2242.139
    
    [GRAPHIC] [TIFF OMITTED] T2242.140
    
    [GRAPHIC] [TIFF OMITTED] T2242.141
    
    [GRAPHIC] [TIFF OMITTED] T2242.142
    
    [GRAPHIC] [TIFF OMITTED] T2242.143
    
    [GRAPHIC] [TIFF OMITTED] T2242.144
    
    [GRAPHIC] [TIFF OMITTED] T2242.145
    
    [GRAPHIC] [TIFF OMITTED] T2242.146
    
    [GRAPHIC] [TIFF OMITTED] T2242.147
    
    [GRAPHIC] [TIFF OMITTED] T2242.148
    
    [GRAPHIC] [TIFF OMITTED] T2242.149
    
    [GRAPHIC] [TIFF OMITTED] T2242.150
    
    [GRAPHIC] [TIFF OMITTED] T2242.151
    
    [GRAPHIC] [TIFF OMITTED] T2242.152
    
    [GRAPHIC] [TIFF OMITTED] T2242.153
    
    [GRAPHIC] [TIFF OMITTED] T2242.154
    
    [GRAPHIC] [TIFF OMITTED] T2242.155
    
    [GRAPHIC] [TIFF OMITTED] T2242.156
    

</pre></body></html>
